United States
Department
of Agriculture

Office of
Inspector
General

N0. 64
December 2010




Office of Inspector General
Semiannual Report to Congress




                              Second Half

                              2010
                              April 1, 2010-September 30, 2010
KEY OIG ACCOMPLISHMENTS IN THIS REPORTING PERIOD —
April 2010-September 2010
SUMMARY OF AUDIT ACTIVITIES	
Reports Issued	
      Number of Reports	                                                                          34
      Number of Recommendations	                                                                 169
Management Decisions Made	
      Number of Reports	                                                                          21
      Number of Recommendations	                                                                 168
Total Dollar Impact (Millions) of Management-Decided Reports	                                  $19.2
      Questioned/Unsupported Costs	                                                             $7.2
      Funds To Be Put To Better Use	                                                           $12.0
SUMMARY OF INVESTIGATIVE ACTIVITIES	
Reports Issued	                                                                                  116
Impact of Investigations	
      Indictments	                                                                               192
      Convictions	                                                                               272
      Arrests	                                                                                   844
Total Dollar Impact (Millions)	                                                                $53.5
Administrative Sanctions	                                                                        170

OIG MAJOR USDA MANAGEMENT CHALLENGES (August 2010)
1) Interagency Communications, Coordination, and Program Integration Need Improvement
Related material can be found on page 1.
2) Implementation of Strong, Integrated, Internal Control Systems Still Needed
Related material can be found on pages 2-3 and 7.
3) Continuing Improvements Needed in Information Technology Security
Related material can be found on pages 18-19.
4) Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained
Related material can be found on page 4.
5) Material Weaknesses Continue To Persist in Civil Rights Control Structure and Environment
No work was reported during this period.
6) USDA Needs To Develop a Proactive, Integrated Strategy To Help American Producers Meet the Global Trade Challenge
No work was reported during this period.
7) Better Forest Service Management and Community Action Needed To Improve the Health of the National Forests and Reduce
the Cost of Fighting Fires
Related material can be found on page 2.
8) Improved Controls Needed for Food Safety Inspection Systems
No work was reported during this period.
9) Implementation of Renewable Energy Programs at USDA
No work was reported during this period.
10) Implementation of the American Recovery and Reinvestment Act of 2009
Related material can be found on pages 11-13, 21-22, and 26-28.
Message from the Inspector General
I am pleased to provide the Semiannual Report to Congress for the Office of Inspector General (OIG), U.S. Department of
Agriculture (USDA) for the 6-month period ending September 30, 2010. Our overall statistical accomplishments this period
have been impressive. We conducted successful investigations and audits that led to 844 arrests, 272 convictions, $53.5 million in
recoveries and restitutions, 154 program improvement recommendations, and $19.2 million in financial recommendations.
During this period, OIG has devoted a significant portion of its resources to supporting the effective implementation of an
estimated $28 billion in funding provided to USDA programs through the American Recovery and Reinvestment Act of 2009
(Recovery Act). We have 32 Recovery Act audit projects underway, with additional audit work scheduled for Fiscal Year (FY) 2011.
OIG’s investigations program is also supporting effective implementation of the Recovery Act by providing fraud awareness training
and materials to USDA employees, contractors, and grantees. The scope and effectiveness of our Recovery Act work would not be
possible without the support of the Administration and the resources provided by Congress.
This report summarizes the most significant OIG activities (including our Recovery Act work) during the period, organized
according to our strategic goals, as outlined in the OIG Strategic Plan for FYs 2007-2012:
σσ    Safety, Security, and Public Health — Our work helped USDA agencies better protect animals that come under
      their purview. In one audit, we determined that the Animal and Plant Health Inspection Service’s (APHIS) inspection
      and enforcement activities were not adequate to deter dog dealers from repeatedly violating the Animal Welfare
      Act (AWA); in another, we determined that the agency needed to improve its system for ensuring that show and
      slaughter horses are treated humanely. Our investigative efforts as part of a nationwide crackdown on dogfighting
      continued to produce results as another defendant was indicted, 6 more pled guilty, and 15 were sentenced.
σσ    Integrity of Benefits — Investigations into the Food and Nutrition Service’s (FNS) Supplemental Nutrition Assistance
      Program (SNAP) resulted in 145 convictions and approximately $26.5 million in monetary results. Ensuring these
      funds are used as intended is vital because SNAP serves both to help low-income households buy healthy food and to
      increase sales for farmers and participating retailers. We also made recommendations to bolster the Risk Management
      Agency’s (RMA) ability to prevent duplicative benefits and to strengthen how it administers two pilot programs that
      offer insurance for grazing and hay losses. We recommended that RMA improve the programs’ integrity through
      formal risk assessments, better interagency communication, and stronger oversight of insurance providers.
σσ    Management Improvement Initiatives — In the wake of the Government paying $13 million after a bankrupt
      company could not pay costs associated with the largest beef recall in U.S. history, we recommended that Agricultural
      Marketing Service (AMS) better protect the public’s interest by conducting a cost-benefit analysis to determine if
      participating companies need insurance or bonding. OIG investigations also uncovered thefts of money and property,
      and helped recover some of the Government’s losses. In one case, we worked with the General Services Administration’s
      (GSA) OIG and other investigative agencies to identify two brothers who were charged with stealing over $3 million
      in Federal property, including an airplane; they were sentenced to prison and required to pay restitution.
σσ    Stewardship Over Natural Resources — Our audit work focused on ensuring proper oversight of,
      accountability for, and transparency in the use of Recovery Act funds that were used for conservation and
      natural resource projects and programs. In general, we worked with USDA agencies, States, and other
      recipients to help them institute policies and procedures to better assure the American public that its money
      is being spent to achieve the Act’s main purpose—promoting economic growth and creating jobs.
As Inspector General, I am deeply appreciative of USDA OIG staff members’ commitment and expertise—the accomplishments
reported here are the direct results of their dedicated work. Our successes are also due in large part to the continued support and
encouragement of USDA Secretary Tom Vilsack, Deputy Secretary Kathleen Merrigan, and interested Committees and members of
the Congress.




Phyllis K. Fong
Inspector General
Contents
 Safety, Security, and Public Health. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

 Integrity of Benefits. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6

 Management Improvement Initiatives . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 18

 Stewardship Over Natural Resources. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 26

 Gauging the Impact of OIG . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 30

 Abbreviations. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 44
                                                                  Goal 1




Safety, Security, and Public Health
OIG Strategic Goal 1:                                                  In the second half of FY 2010, we devoted 11 percent of our
                                                                       total direct resources to Goal 1, of which 99.9 percent was
Strengthen USDA’s ability to implement safety and                      assigned to critical-risk and high-impact work. A total of 78
security measures to protect the public health as                      percent of our audit recommendations under Goal 1 resulted
well as agricultural and Departmental resources.                       in management decision within 1 year, and 76.2 percent of our
                                                                       investigative cases resulted in criminal, civil, or administrative
To help USDA and the American people meet critical
                                                                       action. OIG issued 5 audit reports under Goal 1 during this
challenges in safety, security, and public health, OIG provides
                                                                       reporting period; OIG’s investigations under Goal 1 yielded
independent and professional audits and investigations in these
                                                                       42 indictments, 64 convictions, and $1.1 million in monetary
areas. Our work addresses issues such as the ongoing challenges
                                                                       results.
of agricultural inspection, food safety, and homeland security.



 Management Challenges Addressed UNDER GOAL 1
 σσ     Interagency Communications, Coordination, and Program Integration Need Improvement
 σσ     Implementation of Strong, Integrated, Internal Control Systems Still Needed (also under Goal 2)
 σσ     Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained
 σσ     Better Forest Service Management and Community Action Needed To Improve the
        Health of the National Forests and Reduce the Cost of Fighting Fires



EXAMPLES OF AUDIT AND INVESTIGATIVE                                    regulatory oversight. In general, APHIS agreed with our
WORK FOR GOAL 1                                                        recommendations to propose that the Secretary of Agriculture
                                                                       seek legislative change allowing the agency to regulate Internet
Ineffective Enforcement Weakened APHIS’ Ability to                     dealers, and to strengthen its AWA inspection, enforcement,
Protect Animals                                                        and penalty procedures. (Audit Report 33002-4-SF, APHIS,
The Animal and Plant Health Inspection Service (APHIS)                 Animal Care Program, Inspections of Problematic Dealers)
inspection and enforcement activities were not adequate to             Improvements Needed to Ensure Show and Slaughter
deter dog dealers regulated by the Animal Welfare Act (AWA)            Horses Are Treated Humanely
from repeated violations that endangered animals. We visited
many problematic dealers that had a history of violating AWA           APHIS lacks the resources and enforcement options necessary
and found grave violations that jeopardized animals’ welfare.          to ensure that show and slaughter horses receive proper
For example, one dealer left a dog’s bite wound untreated while        protection. With a limited budget, inspectors can visit only
the flesh rotted away to the bone. Despite the high rate of            about 6 percent of all horse shows each year to determine, for
recurring violations, some inspectors did not correctly report         example, if horses’ legs are purposefully hurt to accentuate
repeat and serious violations. Further, APHIS did not make             their show gait (i.e., soring). Further, industry organizations
full use of its enforcement options—in many cases, issuing             sponsor shows and hire their own inspectors, which is a conflict
minimal penalties and misusing its penalty worksheet to                of interest. APHIS also does not have an adequate system to
assess inappropriately lowered fines. Instead of taking strong         ensure that horses sold for slaughter outside the United States
enforcement action, APHIS generally chose to try education             are treated humanely during transport; for example, that
and cooperation as tools to convince dealers to comply. In             pregnant or blind horses are not shipped. While violators face
addition, a loophole in the pre-Internet AWA (passed in 1966)          fines—$5,000 per horse, per violation—they are ineffective
has allowed large Internet operations to sell animals without          because those who do not pay are still allowed to ship horses.




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half         1
                                                                      Goal 1




In addition, APHIS cannot adequately link a slaughter horse                fined $5,000. Three other individuals who were involved in
to its owner or shipper because the tags can be applied by an              managing one of the cockfighting organizations were sentenced
owner to horses that weren’t examined by a USDA accredited                 to 12 months and 1 day in prison, 3 years of probation,
veterinarian and weren’t fit to travel. To better protect show             and $6,000 in fines. During this reporting period, 17 other
horses, we recommended that APHIS seek more funding and                    individuals were sentenced to 3 years of probation and fined
hire independent veterinarians as inspectors. APHIS agreed to              amounts ranging from $500 to $2,000. This was a joint
revise its slaughter transport regulations to allow it not to issue        investigation with the South Carolina Department of Natural
shipping documents when the owner or shipper has unpaid                    Resources.
fines and to ensure that it better controls tracking tags. (Audit
                                                                           Controls to Prevent the Import and Spread of Foreign
Report 33601-2-KC, APHIS Administration of the Horse
                                                                           Animal Diseases Need Improvement
Protection Act and the Slaughter Horse Transport Program)
                                                                           APHIS’ procedures for handling animals destined for
More Defendants Sentenced in Previously Reported                           quarantine need strengthening, including precautions taken
Case of Dogfighting                                                        when importing the animals into the country and bio-
To update a case previously reported in the Semiannual Report              security conditions at the quarantine facilities. APHIS did
to Congress (SARC), First Half of 2010, another defendant                  not identify these weaknesses prior to our audit because it
was indicted, 6 more pled guilty to conspiracy or engaging in              did not exercise sufficient oversight to ensure import and
dogfighting, and 15 more were sentenced as part of what may                quarantine requirements were implemented. As a result, there
have been the largest crackdown on dogfighting in the United               was a significantly increased risk that infected animals could
States. These defendants were among 28 people in 7 States who              enter the United States without being detected. In fact, we
were indicted and arrested in or about July 2009 when OIG                  determined that infected animals had indeed entered the
agents, the Missouri Highway Patrol, and the Federal Bureau                country and spread contagious diseases to other animals. In
of Investigations (FBI) executed more than 50 Federal search               addition, the fees APHIS charges importers do not cover
warrants in a multi-jurisdictional operation. This reporting               operating costs and capital improvements needed to make sure
period brings the total to 26 defendants who have pled guilty to           that quarantine facilities meet basic bio-security requirements.
conspiracy to engage in dogfighting, with 9 sentenced to prison            We recommended that APHIS implement supervisory reviews
terms ranging from 6 to 24 months. Six others have been                    of its animal import process and biosecurity practices at ports-
sentenced to serve between 24 and 36 months of supervised                  of-entry, animal import centers, and quarantine facilities.
release. In addition, restitution and fines totaling more than             We also recommended that APHIS implement procedures
$260,000 were ordered during this reporting period.                        for handling animal shipments safely and review user fee
                                                                           calculations. APHIS generally agreed with our findings and
23 Individuals Sentenced on Animal Fighting Charges
                                                                           recommendations. (Audit Report 33601-11-Ch, USDA
in South Carolina
                                                                           Controls Over Animal Import Centers)
In November and December 2009, 23 individuals were
charged in the District of South Carolina with unlawful
                                                                           FS Needs to Improve Invasive Species Program
animal fighting, illegal gambling, and conspiracy to violate               The Forest Service’s (FS) Invasive Species Program lacked
AWA through cockfighting. Our investigation focused on two                 many of the internal controls ordinarily associated with
separate organizations that routinely hosted illegal cockfights.           the effective stewardship of Federal funds, such as a proper
In April and May 2010, 17 individuals pled guilty in Federal               control environment; an overall assessment of the risks
court. Also in May 2010, a jury returned guilty verdicts for six           posed by invasive species; effective control activities; effective
defendants after a week-long trial. In July and August 2010,               communication of relevant information within the agency;
the owner of a pit (where the birds fight) was sentenced to 5              and adequate monitoring of the program’s performance. These
years of probation, fined $3,300, and ordered to pay a $25,000             internal control problems have occurred because FS relies on
forfeiture money judgment. Two pit operators were each                     functional areas and field units that operate independently of
sentenced to 21 months in prison, 3 years of probation, and                each other and multiple funding sources tied to 17 different




2     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
                                                                    Goal 1




budget line items. Consequently, FS can neither accurately               which were to: (1) develop a consolidated tracking system
gauge the effectiveness of its attempts to control invasive              that included all wildfire Accident Prevention and Hazard
species, nor state with accuracy how much money it spent                 Abatement Plan action items; (2) order administrative
on the program overall or for a given species. In general, FS            investigations for wildfire incidents when there is evidence of
agreed with our conclusions that it needed to strengthen                 firefighter misconduct or serious safety violations; (3) establish
its control over the invasive species program, including our             procedures to ensure the adequate review of contract crew
recommendations to establish program-wide policies for early             firefighter qualification records; and (4) modify contractor
detection and rapid response; document internal policies                 associations’ agreements to restrict access to electronic training
and procedures; establish cohesive management controls;                  records. FS did not follow through on these recommendations
implement controls for reporting funds spent fighting invasive           due to insufficient controls, planning, and oversight. FS agreed
species; and implement a monitoring plan to continually assess           to complete its implementation. (Audit Report 08601-58-SF,
the program’s overall internal controls. (Audit Report 08601-7-          Forest Service Firefighting Safety Followup)
At, Forest Service Invasive Species)
                                                                         California Corporation Pleads Guilty to Charges of
APHIS Needs to Better Safeguard Exhibited Animals                        False Statements and Aiding and Abetting
and the Viewing Public                                                   In July 2010, a California company was placed on 3 years of
At 15 of 31 exhibitors we visited, there was not a safe distance         supervised probation, fined $50,000, and ordered to pay a
between dangerous animals and the viewing public. Visitors at            $400 special assessment as a result of making false statements
one facility were so close to an exhibited cougar that they could        about where produce was grown. Our investigation determined
have reached into its cage. APHIS’ safety guidance is worded             that the company provided false certificates of origin to county
broadly to allow for the particularities of different animals and        inspectors in order to obtain multiple Federal phytosanitary
different enclosures, but this ambiguity can lead to inconsistent        (i.e., clean health) certificates for red chili peppers, claiming
safety standards. Accordingly, we recommended that APHIS                 that they were grown in the United States when in fact they
clarify its guidance about safe distances and barriers, consult          were imported from India and China. In May 2010, a company
experts when needed, and implement procedures to ensure that             representative signed a plea agreement that charged the
inspectors review all public safety-related areas. We also found         company with making false statements and aiding and abetting.
that APHIS did not have a system in place to document and
                                                                         North Dakota Man Convicted of Assaulting Female
disseminate details of dangerous animal escapes and subsequent
                                                                         FSA Employee
corrective actions taken. We recommended, APHIS agreed,
that such a system would help its inspectors at other facilities         In September 2009, a Lisbon, North Dakota, man who was
evaluate safety features to better protect both exhibited animals        a customer in a Farm Service Agency (FSA) county office
and the public. (Audit Report 33601-10-Ch, Controls Over                 approached a female employee in the hallway, suddenly put one
APHIS Licensing of Animal Exhibitors)                                    arm tightly around her neck and the other around her waist,
                                                                         pulled her close, and said “You can’t do anything about this,”
FS Did Not Adequately Implement Audit                                    and then started kissing her neck. The woman broke away and
Recommendations Pertaining to Firefighting Safety                        fled to office area. The man followed but was intercepted by
We followed up on two previous FS audits that identified 9               a male employee and told to stop following her. The man was
issues and made 18 recommendations to enhance firefighter                known to have followed the woman and harassed her. Based
safety and strengthen FS’ controls over contract crews                   on our investigation, in October 2009, the man was charged
(Firefighting Safety Program (September 2004) and Firefighting           in North Dakota State Court with one count of disorderly
Contract Crews (March 2006)). FS took significant steps                  conduct. In April 2010, the man was found guilty and
towards implementing all but four recommendations,                       sentenced to 50 hours of community service.




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half          3
                                                                    Goal 1




    GOVERNMENTWIDE ACTIVITIES – GOAL 1                                                information on various terrorist organizations,
                                                                                      as well as related topics, such as crisis response
    Participation on Committees, Working Groups,                                      scenarios. (Minnesota/Wisconsin area); and
    and Task Forces                                                                •	 Anti-Terrorism Advisory Councils in many judicial
    σσ     FBI’s National and Local Joint Terrorism Task                              districts, including the Northern District of Illinois;
           Forces. One OIG special agent is assigned full-                            the Eastern and Western Districts of Missouri; the
           time to the national task force and others liaise                          Northern and Southern Districts of Iowa; and the
           with their local task forces. The national task                            Districts of Colorado, Kansas, and Minnesota.
           force special agent attends threat briefings and                           These councils are umbrella organizations including
           provides terrorist intelligence products to OIG and                        local, state and Federal agencies and private sector
           other USDA agencies and offices. Overall, OIG’s                            security representatives which work with the U.S.
           participation provides an excellent conduit for                            Attorney’s Offices for their geographic areas to
           sharing critical law enforcement intelligence and                          disrupt, prevent and prosecute terrorism through
           has broadened the FBI’s and other law enforcement                          intelligence-sharing, training, strategic planning,
           agencies’ knowledge of how to conduct criminal                             policy review, and problem-solving.
           investigations connected to food and agriculture.
    σσ     FBI’s Joint Interagency Agroterrorism Working                     ONGOING AND PLANNED REVIEWS FOR GOAL 1
           Group. OIG’s emergency response team continues                    Topics that will be covered in ongoing or planned reviews
           to participate in this working group, which                       under Goal 1 include:
           develops protocols and procedures for the FBI,
           APHIS, and OIG to coordinate their response to                    σσ    country-of-origin labeling (AMS),
           agroterrorism. In addition, the team participates                 σσ    National Organic Program’s list of allowed
           in numerous multiagency, scenario-based exercises                       and prohibited substances (AMS),
           throughout the country. Exercises during this                     σσ    oversight of procuring poultry products
           reporting period included “Rising Storm II” to                          for Federal food programs (AMS),
           prepare for a disaster such as a major hurricane in
           the New York City area; “Double Back,” which                      σσ    National Organic Program—organic milk (AMS),
           simulated two intentional contamination scenarios                 σσ    retailer handling of organic products (AMS),
           in the Northeast; and a tabletop exercise that                    σσ    periodic residue testing program for
           simulated an agroterrorism event in Arkansas.                           organic products (AMS),
    σσ     During this reporting period, OIG agents also                     σσ    implementation of select agent or toxin
           participated in other safety and security-related                       regulations—followup (APHIS),
           working groups and task forces, including:
                                                                             σσ    effectiveness of the plant pest program (APHIS),
           •	 Agriculture Intelligence Working Group, which
                                                                             σσ    plant protection and quarantine pre-
              discussed bio-defense and international food safety
                                                                                   clearance program (APHIS),
              with representatives including APHIS, the Food
              Safety and Inspection Service (FSIS), the FBI,                 σσ    keeping foreign animal diseases out
              the U.S. Army, the U.S. Department of State,                         of the United States (APHIS),
              the Food and Drug Administration, and the U.S.                 σσ    agriculture import products (APHIS),
              Department of Health and Human Services;
                                                                             σσ    effectiveness of the safeguarding interdiction and
           •	 Arrowhead Counter-Terrorism Task Force is                            trade compliance units’ identifying and preventing
              a group of regional law enforcement and                              prohibited products from entering the United
              emergency response providers, led by the FBI                         States (APHIS),
              field office in Duluth, Minnesota, which meets
              monthly for training sessions and sharing




4        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
                                                             Goal 1




σσ   USDA’s emergency response plan for                               σσ    controls over shell egg inspections
     foot-and-mouth disease (APHIS),                                        (APHIS, FSIS, and AMS),
σσ   maintenance of bovine spongiform                                 σσ    controls over labeling of food allergens (FSIS),
     encephalopathy (i.e., “mad cow” disease)                         σσ    food defense verification for imported products (FSIS),
     program surveillance (APHIS),
                                                                      σσ    food defense verification at domestic
σσ   oversight of research facilities (APHIS),                              processing establishments (FSIS),
σσ   followup audit on the implementation of controls                 σσ    USDA’s response to colony collapse disorder
     to prevent the release of sensitive technology                         (APHIS, ARS, FSA, National Agricultural
     (Agricultural Research Service (ARS)),                                 Statistics Service (NASS), Natural Resources
σσ   in-commerce surveillance (FSIS),                                       Conservation Service (NRCS), and RMA.
σσ   State inspection programs (FSIS),                                σσ    USDA’s ability to respond to agricultural
σσ   evaluation of food emergency response network (FSIS),                  emergencies (APHIS,  ARS, and National
                                                                            Institute of Food and Agriculture (NIFA)), and
σσ   implementation of the public health information
     system for domestic inspection (FSIS),                           σσ    controls over genetically engineered animals and insects
                                                                            (APHIS, ARS, and NIFA).
σσ   followup on 2007 and 2008 audit initiatives (FSIS),
σσ   controls over the voluntary inspection
     of slaughtered bison (FSIS),
                                                                      ONGOING AND PLANNED REVIEWS FOR GOAL 1
                                                                      UNDER RECOVERY ACT FUNDS
σσ   controls over imported meat and
     poultry products (FSIS),                                         σσ    implementation of flood control dams
                                                                            rehabilitation – phase II (NRCS).
σσ   assessment of inspection personnel shortages
     in processing establishments (FSIS),                             We will cover the findings and recommendations from
σσ   N-60 testing protocol on beef trim for                           these efforts in future semiannual reports as we complete
     E. coli– phases I & II (FSIS),                                   the relevant audits and investigations.
σσ   inspection of swine slaughter facilities (FSIS),




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half              5
                                                                 Goal 2




Integrity of Benefits
OIG Strategic Goal 2:                                                 our investigations under Goal 2 yielded 115 indictments, 189
                                                                      convictions, and $42 million in monetary results.
Reduce program vulnerabilities and strengthen
                                                                      Our audit reports and fast reports reviewed agencies’ program
program integrity in the delivery of benefits to                      guidance and requirements, internal controls, eligibility criteria,
program participants.                                                 and Departmental compliance activities related to Recovery Act
OIG conducts audits and investigations to ensure integrity in         requirements. This semiannual report describes the audit and
USDA’s various benefit and entitlement programs, including            fast reports we issued during the second half of FY 2010. We
many that provide payments directly and indirectly to                 anticipate that our audit efforts will continue through FY 2011.
program participants. These programs support nutrition, farm          In addition, OIG staff has engaged in training and outreach
production, and rural development. The size of these programs         initiatives through presentations to professional organizations
is daunting: SNAP alone has accounted for more than $50               involving State, local, and independent audit groups. OIG
billion in benefits annually in FY 2009 and FY 2010, and              investigators are working to ensure the integrity of Recovery
well over $20 billion is spent on USDA farm programs each             Act programs by investigating potential fraud, pursuing
year. Intended beneficiaries of these programs include farmers        prosecution, and implementing a Recovery Act whistleblower
and ranchers, the working poor, hurricane and other disaster          investigation program. To increase fraud awareness, in FY 2010,
victims, and schoolchildren.                                          investigators participated in 54 meetings, outreach activities,
The $28 billion in funding USDA received under the Recovery           and training sessions with our Federal, State, and local partners.
Act is being administered in a number of areas including farm         We have reviewed and adjusted our hotline procedures so
loans, watershed programs, nutrition assistance, wildland fire        that we can identify Recovery Act complaints and handle
management, and several rural development programs (such as           them quickly. We continue to promptly review referrals of
rural housing, rural business, and broadband). The Recovery           potential fraud and mismanagement sent to us by the Recovery
Act also provided OIG with $22.5 million (available through           Board. We open investigations or forward the referrals to the
September 2013) for “oversight and audit of programs, grants,         appropriate USDA agencies as warranted.
and activities funded by this Act and administered by the
Department of Agriculture.”
OIG began working immediately with USDA and the IG                        Management Challenges Addressed UNDER GOAL 2
community, as well as the Government Accountability Office                σσ   Interagency Communications, Coordination,
(GAO) and the Recovery Accountability and Transparency                         and Program Integration Need Improvement
Board (Recovery Board), to carry out these oversight                      σσ   Implementation of Strong, Integrated, Internal
responsibilities. Our Recovery Act oversight plan includes                     Control Systems Still Needed (also under Goal 1)
proactive, short-term, and long-term audit and investigative              σσ   Implementation of the Recovery Act
work and can be found on our website (http://www.usda.gov/                     (also under Goals 3 and 4)
oig/recovery/OIGSTIMULUSPLAN.pdf ).
In the second half of FY 2010, we devoted 54 percent of our
total direct resources to Goal 2, with 94 percent assigned to         EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR
critical/high-impact work. A total of 73 percent of our audit         GOAL 2
recommendations under Goal 2 resulted in management
decision within 1 year, and 74 percent of our investigative
                                                                      Controls Over the Intermediary Re-lending Program
cases resulted in criminal, civil, or administrative action. OIG      Need Strengthening
issued 12 audit reports and 6 Recovery Act fast reports (quick        Intermediaries receive low-interest loans that they in turn
turnaround reports intended to alert management to immediate          re-lend at higher rates in their communities to help create rural
Recovery Act issues) under Goal 2 during this reporting period;       jobs, but we found that 33 of 435 loans totaling $7.9 million




6    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
                                                                   Goal 2




did not comply with program requirements, such as loan                  Although AIPs are supposed to review some policies before
limit, purpose, or eligibility. In many cases, this occurred            paying insurance indemnities, they were not selecting those
because intermediaries made the loans with “revolved” funds             policies according to RMA’s guidelines and were not submitting
(money that loan recipients pay back to intermediaries),                their review results in a timely, complete, and useful format.
which they considered exempt from Federal requirements due              We also found that two producers who were not eligible to
to ambiguous regulatory language. We also determined that               insure their land received improper indemnities totaling $1.2
two of seven intermediaries did not promptly re-lend their              million. Finally, we found that RMA needs to ensure that the
revolved funds, totaling over $1.7 million. Regulations required        private contractor that maintains hay and forage data meets
intermediaries to re-lend funds promptly, but did not provide           Federal Information Technology (IT) standards. RMA generally
a specific timeframe. Overall, the Rural Business-Cooperative           agreed with our recommendations, but did not agree to have
Service (RBS) agreed with our recommendations to revise                 the contractor certify, accredit, and document the IT system for
its regulations to clarify that revolved funds are subject to           the hay and forage program. (Audit Report 50601-18-Te, Risk
Federal requirements and to define prompt re-lending. (Audit            Management Agency, Pasture, Rangeland, and Forage Pilot
Report 34601-6-At, Rural Business-Cooperative Service –                 Program)
Intermediary Re-lending Program)
                                                                        New Agreement Negotiated for Federal Crop
Rural Development’s Alaska State Office Needs to                        Insurance Program
Strengthen Internal Controls Over Grant Spending                        In July 2010, RMA renegotiated the standard reinsurance
Instead of deobligating unspent grant money as required,                agreement (SRA), which sets the guidelines for AIPs to offer
Rural Development’s Alaska State office permitted reallocating          crop insurance and other products. We provided comments
Federal funds from approved projects that were not progressing          to earlier drafts to support some of the new provisions.
to other water and waste projects. (Nearly $5.5 million                 For example, we supported reducing insurance providers’
obligated to the stalled projects was held for reallocation.)           guaranteed rate of return and limiting agent commissions in
Rural Development’s national office allowed—but never                   relation to subsidies for administrative and operating expenses.
formally approved—the State office’s “stalled” policy because           All 16 AIPs participating in the Federal Crop Insurance
several projects were funded by individual large-dollar grants.         Program during 2010 had executed new SRAs, which formally
We also found that there were not adequate documents to                 ended the renegotiation process. (Audit Report 05601-5-KC,
support some reimbursed expenses. The agency agreed with                RMA Activities to Renegotiate the SRA)
our recommendation that it should deobligate the remaining
                                                                        FSA’s Eligibility Criteria for Emergency
unspent grant balances and strengthen its internal controls
                                                                        Conservation Program (ECP) Assistance Subject to
over grant spending. (Audit Report 09099-2-SF, Rural Utilities
Service Rural or Native Alaskan Village Grants)
                                                                        Misinterpretation
                                                                        Under certain circumstances, producers can obtain ECP
RMA Needs to Improve Communication With USDA                            disaster assistance for work they start before receiving official
Agencies Operating Related Programs When It Starts                      approval, but an FSA State and county committee incorrectly
New Insurance Programs                                                  approved reimbursing 14 producers a total of $264,524 for
Beginning in 2007, RMA started two new pilot programs for               work they started months earlier. The producers only met
pasture, rangeland, and forage, which offered insurance for             some of the eligibility criteria; however, after review, FSA’s
losses of grazing forage or hay. When RMA started this pilot            national office allowed the reimbursements partly because the
program, it did communicate with some other USDA agencies,              guidance was not clear about whether some or all requirements
but it does not have procedures in place to mitigate the risk of        had to be met. Based upon our recommendation, the agency
overlap with existing programs. RMA also needs to improve               agreed to clarify its ECP guidance. (Audit Report 03702-1-Te,
how it oversees the approved insurance providers (AIP) through          Emergency Conservation)
which it provides insurance and maintains relevant data.




                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half        7
                                                                     Goal 2




Lender Was Negligent in Servicing Loans                                   Minnesota Farmer Sentenced for Selling Mortgaged
We published two audit reports in response to RBS’ request to             Cattle
review the loan B&I portfolio of one of its lenders due to high           Our investigation found that a Pine Island, Minnesota, farmer
default rates:                                                            sold at least 79 head of mortgaged cattle and forged the
σσ    A borrower in Maryland obtained a $3 million loan with              signatures of FSA county office employees on at least 28 of
      a Business and Industry (B&I) guarantee of 80 percent;              the sales checks. Due to these conversions and forgeries, FSA
      however, the lender did not ensure that there was sufficient        suffered a loss of $136,065. In October 2009, the farmer was
      collateral to secure the loan. This occurred because the            indicted in Federal court for the District of Minnesota for bank
      collateral was valued based on future improvements                  fraud and converting mortgaged property. He subsequently
      which were not made. As a result, the guaranteed loan               pled guilty and was sentenced in April 2010 to serve 12 months
      was under collateralized by at least $544,000. The                  and 1 day in Federal prison and was ordered to pay $116,941
      agency waived recovery due to the lender’s bankruptcy.              in restitution.
      (Audit Report 34099-9-Te, Review of Lender with
      Business and Industry Guaranteed Loan in Maryland)                  Arkansas Farm Family Commits Fraud
σσ    The lender also obtained a loan note guarantee of 80                Our investigation found that three Forrest City, Arkansas,
      percent on a $5 million loan but misrepresented the                 family members submitted false receipts totaling $121,806 to
      borrower’s financial condition. At loan closing, the                FSA for the purchase of livestock and equipment in order to
      borrower’s working capital was reallocated to pay over              receive reimbursements from the agency. In May 2010, one
      $900,000 for tax delinquency, which would have made                 farmer was sentenced to serve 60 months of probation and
      the borrower ineligible for the loan. Also, the lender
                                                                          ordered to pay $33,635 in restitution. His father and mother
      did not ensure that almost $2 million in loan funds
                                                                          were later sentenced to serve 60 months of probation and
      were deposited in lender-controlled accounts. After the
                                                                          ordered to pay $37,068 in restitution.
      borrower became delinquent, RBS had to make good
      its guarantee, totaling over $4 million. Accordingly, we            Ohio Farmer Convicted of Defrauding FSA and RMA
      recommended that RBS require the lender to repay that
      loss. (Audit Report 34099-11-Te, Review of Lender with
                                                                          An investigation we conducted jointly with RMA’s Midwest
      Business and Industry Guaranteed Loan in Louisiana                  Regional Compliance Office revealed that a Greenville,
                                                                          Ohio, farmer made false statements regarding his 2000 FSA
Arizona Farmers Pay More than $3 Million in Civil                         soybean loan deficiency payment and his 2004 FSA corn loan
Settlement                                                                deficiency payment. The farmer also provided false financial
Our investigation of a Yuma, Arizona, family-owned farm                   statements to two banks to receive operating loans from 2000
partnership disclosed that, from 2001 through 2004, nine                  to 2004, and filed false crop insurance claims. In July 2008, the
individuals made false statements and conspired with one                  farmer was indicted in Federal court for a scheme to defraud
another to circumvent payment limitations in order to                     USDA in both Ohio and Indiana and was charged with
receive program payments from FSA. The managing partner                   two counts of wire fraud, one count of Commodity Credit
established farming entities, in name only, involving the                 Corporation (CCC) loan conversion, and 11 counts of filing
farmer’s nieces and nephews and reported to FSA that they                 false crop insurance claims. He pled guilty to one count each
were actively involved in the farming operation when they were            of conversion and filing a false crop insurance claim and was
not. In April 2010, the partnership and its members agreed                sentenced in April 2010 to 6 months in prison followed by
to collectively pay the Federal Government $3.1 million to                2 years of probation. He was also ordered to pay $30,000 in
resolve allegations that they violated the False Claims Act by            restitution.
submitting false statements to FSA.




8    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
                                                                 Goal 2




New Mexico Farmer Convicted of Tax Fraud While                        In March 2002, RUS approved a $3.3 million loan to a West
Fraudulently Collecting USDA Farm Subsidies                           Virginia corporation to construct a fixed wireless broadband
                                                                      system for areas in Ohio and West Virginia. The corporation
In April 2010, a farmer in New Mexico was convicted in
                                                                      then fraudulently disbursed RUS loan funds based on phony
Federal court of failing to file personal income tax returns
                                                                      invoices submitted for payment and also paid loan funds
since 1986 and owing $18 million to the Internal Revenue
                                                                      to an Ohio company where former principals of the West
Service (IRS). This farmer also provided fictitious employer
                                                                      Virginia corporation became employed after submitting their
identification numbers to FSA in order to collect Federal farm
                                                                      resignations. The matter was investigated jointly by USDA
aid totaling over $225,000. When he is sentenced, the farmer
                                                                      OIG, IRS, and the West Virginia Legislature Commission on
faces a maximum prison term of 49 years and a maximum fine
                                                                      Special Investigations.
of $2.9 million.
                                                                      Corporate officials, a board member, and the Ohio company
West Texas Cotton Farmer Convicted of Failing to                      were charged with a variety of crimes including mail fraud,
Disclose Debt on Loan Application                                     theft or bribery, money laundering, aiding and abetting,
In April 2010, a West Texas cotton farmer was sentenced in            perjury, and obstruction of justice. The Ohio company and
Federal court to 60 months of probation and ordered to pay            two former officials of the West Virginia corporation pled
a $2,600 fine for failing to report his cotton seed loan debt to      guilty to money laundering conspiracy for their involvement in
FSA when applying for additional USDA funding. He obtained            misappropriating more than $2.4 million. The former chairman
four cotton seed loans totaling $260,116, and failed to repay         of the board of the West Virginia corporation pled guilty
$128,707 obtained through the sale of his mortgaged cotton.           to obstruction of justice for withholding information from
During the course of the investigation, the subject repaid            investigators about the use of the fraudulently obtained funds.
$76,994 and was denied additional funding totaling $200,000.          The chief financial officer of the Ohio company was found
                                                                      guilty of obstructing a Federal audit by intentionally providing
Owners of Bioenergy Company Sentenced for False
                                                                      false information.
Claims
                                                                      The Ohio company and the former officers of the West Virginia
Two owners of a bioenergy company in Mississippi were
                                                                      corporation have recently been sentenced for these crimes. The
sentenced in Federal court for submitting false claims to
                                                                      Ohio company was sentenced in May 2010 to 60 months of
defraud CCC of almost $2.9 million in connection with
                                                                      probation and ordered to pay restitution totaling $1.5 million.
2004 and 2005 bioenergy program payments. One owner was
                                                                      The former chief operating officer of the West Virginia
sentenced in July 2010 to 60 months of incarceration followed
                                                                      corporation was sentenced in April 2010 to 6 months of home
by 60 months of supervised release. The other owner was
                                                                      confinement followed by 2 years of supervised release and was
sentenced in September 2010 to 26 months of incarceration
                                                                      ordered to pay restitution of $548,571. Also in April 2010, the
followed by 36 months of supervised release. Both were ordered
                                                                      former chief executive officer of the West Virginia corporation
to pay nearly $2.9 million in restitution jointly and severally.
                                                                      was sentenced to 18 months of imprisonment to be followed
Corporation and Corporate Officers Sentenced in                       by 3 years of supervised release and was ordered to pay nearly
Wireless Broadband Loan Fraud Case                                    $850,000 in restitution. Sentencing is pending for the former
In an update to an investigation reported in the SARC, First          chairman of the board of the West Virginia corporation and the
Half of 2009, two individuals and a company were sentenced            chief financial officer of the Ohio company.
during this reporting period for their involvement in a scheme
to fraudulently obtain disbursements from a $3.3 million Rural
Utilities Service (RUS) broadband loan.




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half        9
                                                                      Goal 2




OIG Targets Fraud and Illegal Trafficking in FNS Food
Assistance Programs
The second half of FY 2010 also saw the successful conclusion
of OIG investigations into illegal trafficking of SNAP and the
Special Supplemental Nutrition Program for Women, Infants,
and Children (WIC) benefits:
σσ    In Miami, Florida, we conducted a joint investigation
      with the City of Miami Police Department and found
      that individuals posing as owners of a grocery store were
      involved in SNAP benefit trafficking. Our analysis of
      financial data determined that the store’s fraudulent SNAP
      transactions totaled approximately $5 million. One of the            (1) Detroit liquor store that trafficked nearly $1 million in SNAP
      subjects opened a second store during the investigation. In          benefits in 2004-2005. OIG photo.
      December 2009, the store owner and other co-conspirators
      were indicted and subsequently arrested for conspiracy to                  benefits and concealed the proceeds inside residences and
      commit wire fraud and SNAP fraud. Further investigation                    safety deposit boxes. During the investigation, OIG and
      disclosed that a third store was also involved in SNAP                     IRS agents seized over $700,000 in cash. Despite having
      trafficking totaling $1.2 million. Between March and May                   access to this money and other assets, the defendants
      2010, four defendants pled guilty in U.S. District Court,                  applied for and received public assistance in the form
      Southern District of Florida, to conspiracy to commit                      of WIC, SNAP, and Medicaid subsidies. In April 2010,
      wire fraud and SNAP fraud. They were sentenced to                          the store’s owners were sentenced in U.S. District Court,
      prison terms ranging from 8 to 48 months and ordered                       Eastern District of Michigan, to incarceration ranging
      to pay restitution in amounts ranging from $346,456                        from 20 to 24 months and restitution totaling nearly
      to $2.2 million. On their release from prison, three of                    $1.8 million. The wife of one owner was sentenced to 1
      the defendants will surrender to immigration officials                     day in prison, 24 months probation, and nearly $52,000
      for deportation. Three additional defendants remain at                     in restitution jointly and severally with her husband for
      large and are presumed to be in Guatemala and Jordan.                      the public assistance they had fraudulently received.
σσ    An OIG investigation disclosed that two brothers who                 σσ    A joint investigation by OIG and the FBI identified a
      operated a meat market and grocery store in Detroit                        small store in Ypsilanti, Michigan, engaged in SNAP and
      defrauded SNAP for more than $800,000 over 3 years.                        WIC benefit trafficking. The defendants also operated
      The men conspired with their employees to purchase                         an illegal overseas money transfer business, commonly
      SNAP benefits from customers in exchange for cash,                         known as hawala, through which they facilitated the
      cigarettes, and khat—an illegal stimulant. At the store,                   exchange of SNAP and WIC benefits for cash and overseas
      agents seized over 175 pounds of khat as well as distribution              money transfers, in this case to people in the Middle
      paraphernalia. The brothers each pled guilty to one                        East and Africa. As we reported in the SARC, First Half
      felony count of wire fraud in the U.S. District Court,                     of 2010, the owner and employees pled guilty to over
      Eastern District of Michigan, and were each sentenced in                   $750,000 in SNAP and WIC fraud in September and
      August 2010 to 30 months imprisonment and restitution                      November 2009. During this reporting period, they
      of $817,025. Both brothers also agreed not to contest                      were sentenced to incarceration ranging from 18 to
      forfeiture of $46,084 in seized criminal proceeds.                         30 months, and restitution from $432,809 to $718,743.
σσ    A joint investigation involving OIG and IRS resulted in              σσ    Our investigation and analysis of financial data at a
      three guilty pleas and substantial forfeiture recoveries.                  Camden, New Jersey, grocery store disclosed that the
      From 2004 through 2005, the owners and employees of                        store had trafficked in SNAP benefits totaling $324,282.
      a store in Detroit trafficked nearly $1 million in SNAP                    Two store employees were arrested for charges including




10     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
                                                                   Goal 2




      theft of Government funds, immigration violations, and            part of a law firm that represented both USB and USSEC.
      conspiracy. Both store employees pled guilty in Federal           Our review disclosed insufficient evidence to substantiate
      court and during this reporting period, were sentenced            the allegations of mismanagement and misuse of funds, but
      to terms of imprisonment of 11 months and 12 months               we did recommend USB take steps to ensure proper internal
      plus 1 day, respectively. They were also ordered jointly          controls are established for USSEC and to provide closer
      and severally to pay restitution totaling $324,282.
                                                                        oversight. Although allegations against the former USSEC
South Texas County Health District Employee                             Chief Executive Officer were beyond OIG’s jurisdiction, the
Sentenced for Stealing WIC Vouchers and Baby                            appropriate officials took action when warranted. Finally, based
Formula                                                                 upon a decision by the District of Columbia Bar Association,
In April 2010, a county health district employee in south Texas         no conflict of interest was found for the law firm representing
was sentenced in Federal court to 6 months of probation and             USB and USSEC.
ordered to pay over $1,000 in fines and restitution for her role
in stealing WIC vouchers and baby formula from clients who              RECOVERY ACT REVIEWS
failed to make their scheduled appointments. When clients did
not attend their meetings, the employee gave infant formula             Rural Development (RD) Has Opportunity to Improve
and WIC vouchers that were intended for them to ineligible              Oversight of Single-Family Housing (SFH)
individuals, including a former co-worker. When confronted,             We published a series of four fast reports assessing the oversight
she immediately resigned.                                               and control RD maintained over $1.56 billion in Recovery
Day Care Provider Pleads Guilty to Making False                         Act-funded loans to buyers with very low incomes through its
                                                                        Section 502 SFH Direct Loan Program. We found:
Claims and Using a False Social Security Number
                                                                        σσ    RD did not ensure that calculations supporting borrowers’
In July 2010, the owner of an Omaha, Nebraska, day care
                                                                              eligibility were current before loan closing, which increased
center pled guilty in Federal court to making false claims and
                                                                              the risk of making an ineligible loan if a borrower’s
using a false social security number after our investigation
                                                                              circumstances changed. RD reviewers also did not document
determined that the woman prepared documents showing                          the scope and timing of their second-party reviews in
a bogus number of day care attendees each day along with                      loan files, which reduced assurance in the quality control
fictitious social security numbers. She then submitted the                    process. We recommended that RD ensure that supporting
fraudulent documents for reimbursement through USDA’s                         documents are updated before loan closing and that the
Child and Adult Care Food Program (CACFP). As a result,                       scope and timing of reviews are specified. Recovery Act
she received overpayments of at least $20,256. Sentencing is                  Fast Report (Audit Report 04703-2-KC(1), Single-Family
pending.                                                                      Housing Direct Loans Recovery Act Controls – Phase II)
                                                                        σσ    Comprehensive State office reviews of loan-making
Review of Soybean Checkoff Program Completed
                                                                              and servicing were not being compiled and analyzed by
In January 2009, in response to requests from several sources                 RD to obviate nationwide trends in control weaknesses
(including a former Secretary of Agriculture and a U.S.                       or to track the effectiveness of corrective actions. We
Senator), OIG began a review of the Soybean Checkoff                          recommended, with RD’s overall concurrence, that
Program, which is funded by U.S. soybean producers                            the reviews be used for multi-year, national analyses
to support domestic and international soybean use. The                        and to train its State staff. Recovery Act Fast Report
American Soybean Association had forwarded petitions to                       (Audit Report 04703-2-KC(2), Single-Family Housing
                                                                              Direct Loans Recovery Act Controls – Phase II)
a former Secretary of Agriculture, a U.S. Senator, and our
office that alleged misconduct on the part of the former U.S.           σσ    RD was not using information in its loan database to reject
Soybean Export Council (USSEC) Chief Executive Officer,                       loans to recipients who were ineligible because they were
mismanagement and misuse of funds by the United Soybean                       making more money than was allowed under program
                                                                              requirements. RD concurred with our recommendations
Board (USB) and USSEC, and conflict of interest on the




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half           11
                                                                    Goal 2




      to update/correct its data and to implement systems                reviews were unnecessary because States’ annual activity reports
      identifying potentially ineligible recipients. Recovery Act        gave the agency adequate fraud detection oversight, we found
      Fast Report (Audit Report 04703-2-KC(3), Single-Family             that the reliability of these reports’ data was questionable and
      Housing Direct Loans Recovery Act Controls – Phase II)             often unverified. In the other report, we found that FNS and
σσ    Many RD employees had access to multiple IT systems                State agency officials relied on hotline complaints and outside
      through which SFH loans are initiated, approved, obligated,        referrals to identify SNAP fraud, but did not use reports
      and disbursed, which increases the risk that improper loans        from electronic benefit processors that tracked participants’
      can go undetected. In general, RD agreed with our concern          and retailers’ activity to show potential fraud or misuse. In
      about broad access authority and our recommendations
                                                                         its response to each audit, FNS generally agreed with our
      to closely monitor and limit users. Recovery Act Fast
                                                                         specific findings and recommendations for the two States, but
      Report (Audit Report 04703-2-KC(4), Weaknesses
                                                                         disagreed that they were applicable nationwide. However, the
      in Controls that Segregate Key Duties, Single Family
      Housing Direct Loans Recovery Act Controls – Phase II)             agency did agree to periodically review the benefits reports
                                                                         and to encourage States to use them to focus on SNAP fraud.
We compiled these findings into one report and included Rural
                                                                         Recovery Act Fast Reports (Audit Reports 27703-02-Hy(1) &
Development’s proposed corrective actions for the weaknesses
                                                                         27703-02-Hy(2), State Fraud Detection)
we identified. (Audit Report 04703-2-KC, Single-Family
Housing Direct Loans Recovery Act Controls – Phase II)                   FS Funded Projects in Counties That Were Not
                                                                         Economically Distressed
Questionable Activity Referred From the Recovery
Accountability and Transparency Board                                    FS used $100 million in Recovery Act money to fund 110
                                                                         projects in counties that were not economically distressed.
The Recovery Accounatability and Transparency Board reported
                                                                         Agency officials told us that they considered other factors
to OIG 17 instances of questionable activity from March
                                                                         in addition to economic distress when deciding where to
through August 2009. The referrals involved 21 contracts
                                                                         fund projects; factors such as the applicant’s ability to timely
that FS awarded for capital improvement and maintenance
                                                                         complete the project. However, we concluded that agency
work authorized by the Recovery Act. We performed audit or
                                                                         actions were inconsistent with the Recovery Act’s goal of
investigative work related to each referral and issued 12 reports
                                                                         creating jobs in areas of economic hardship. As a result,
to the Chief, Forest Service. We also reported to the Recovery
                                                                         agency officials spent $100 million in areas with low rates of
Board numerous instances where FS officials did not comply
                                                                         unemployment, which likely did little to preserve or create jobs.
with provisions of the Recovery Act or Federal Acquisition
                                                                         Accordingly, we recommended that FS notify the public that
Regulations (FAR). Common violations included clauses
                                                                         Recovery Act money went to projects in counties that were not
missing from contracts and inaccurately reported contract
                                                                         significantly impacted by the recession. We also recommended
elements, which we concluded were primarily due to errors in
                                                                         that the agency identify projects not yet started and divert the
reconciling data. FS generally agreed with the recommendations
                                                                         funds to other projects in economically distressed areas. FS
we made to correct internal control weaknesses. (Audit Report
                                                                         agreed to publish its rationale for funding projects, but not
08703-01-Hy(1), Recovery Board Referrals)
                                                                         to divert funds because all projects were already underway.
States’ SNAP Fraud Detection                                             Recovery Act Fast Report (Audit Report 08703-001-Hy(2)
                                                                         Prioritization and Project Selection)
Two of our fast reports evaluated FNS’ State-level controls in
New Jersey and Florida to mitigate SNAP fraud, an area related           FNS Properly Used Recovery Act Funds Made
at least in part to FNS’ increased Recovery Act funding. In one          Available for WIC
report, we determined that FNS performed reviews to evaluate
                                                                         In FY 2009, FNS used $38 million of the $400 million in
how States managed SNAP, however, the specific program
                                                                         Recovery Act funds made available to WIC for that year and
target areas determined by FNS did not include coverage of
                                                                         2010. FNS officials said that they did not anticipate needing
State fraud detection units. Although FNS indicated that such
                                                                         more Recovery Act funding the next year (FY 2010). We




12     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
                                                                Goal 2




determined that FNS’ use of these contingency funds was
timely and effective, properly controlled, and that States
established effective compliance procedures. Accordingly, we
made no recommendations. (Audit Report 27703-1-Ch, FNS
Oversight of the Recovery Act WIC Contingency Funds)

RD’s Adequate Management Control of Rural
Community Facilities Direct Loan and Grant Program
Recovery Act Activities – Phase I
The Recovery Act funded RD’s Community Facilities Direct
Loan and Grant Program with $1.1 billion for direct loans and
$61 million for grants. As of April 2010, $591.7 million has
been obligated for direct loans and $46.3 million for grants.
Our audit determined that RD had adequate management
controls and that Recovery Act projects were properly
approved. We therefore made no recommendations. (Audit
Report 04703-01-Hy, Controls over Rural Community
Facilities Program Direct Loan and Grant Recovery Act
Activities – Phase 1)




                                                                   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half   13
                                                                 Goal 2




 GOVERNMENTWIDE ACTIVITIES – GOAL 2                                            resulted in 95 arrests made and 120 search warrants
                                                                               served in Michigan. The U.S. Attorney’s Office for
 Participation on Committees, Working Groups,                                  the Eastern District of Michigan and the Michigan
 and Task Forces                                                               Attorney General’s Office are pursuing criminal
                                                                               prosecutions, with cases so far resulting in 80 guilty
 σσ    OIG Provided Technical Assistance to National Institute
                                                                               pleas and sentences including incarceration, fines,
       of Food and Agriculture (NIFA). In August 2010,
                                                                               and restitution. The U.S. Attorney’s Office has
       OIG provided technical assistance to NIFA during
                                                                               initiated forfeitures totaling over $2 million.
       its financial and administrative review of one of
       its grantees in Oahu, Hawaii. We helped NIFA to                    σσ   Southern Ohio Fugitive Apprehension Strike
       draft the review program and engagement letter and                      Team. In Columbus and Cincinnati, Ohio,
       to conduct the on-site review. After NIFA drafts                        two OIG investigators participate with the
       its report, we expect to participate in a “lessons                      U.S. Marshals Service on this team to help
       learned” meeting about the assistance we provided.                      find fugitives by comparing identification
                                                                               information against the list of SNAP recipients.
 σσ    Operation Talon. OIG began Operation Talon in 1997
       to catch fugitives, many of them violent offenders,                σσ   Ohio Organized Crime Investigations Commission
       who are current or former SNAP recipients. Since its                    Task Force. Since 1996, an OIG investigator has been
       inception, Operation Talon has led to the arrests of                    part of this task force in Dayton, Ohio, which helps
       thousands of fugitive felons. During FY 2010, OIG                       local law enforcement agencies investigate organized
       agents conducted Talon operations in 6 States and                       crime. Investigations have included SNAP benefits
       made a total of 748 arrests. OIG combined forces with                   trafficking, stolen farm equipment, and dogfighting.
       Federal, State, and local law enforcement agencies                 σσ   Animal Fighting – Indianapolis. An OIG
       to arrest 68 fugitives in Alabama, 24 in Iowa, 342 in                   investigator is working with the Indianapolis
       Massachusetts, 4 in California, 55 in Arizona, and                      Metropolitan Police Department and
       255 in Missouri for offenses including arson, assault,                  Indianapolis Animal Care and Control in
       blackmail, robbery, sex offenses, weapons violations,                   Indiana to investigate illegal animal fighting.
       drug charges, and offenses against family and children.            σσ   Mortgage Fraud Task Forces. OIG investigators
 σσ    Hurricane Katrina/Rita Task Forces. Work continues                      participate in mortgage fraud task forces in California,
       on investigations opened by OIG special agents who                      Michigan, and New Hampshire, in addition to a
       have participated in these multiagency task forces                      national mortgage fraud working group that meets
       that focus on false claims or statements submitted                      monthly in Washington, DC. These task forces
       to obtain Federal benefits for these disasters. From                    identify trends, share information, and coordinate
       November 2005 through the end of this reporting                         investigations related to mortgage fraud. The
       period, OIG has conducted 108 cases in which FNS,                       task forces are headed by representatives from
       FSA, RD, and other Federal agencies have been                           U.S. attorneys’ offices and the FBI, and include
       defrauded. During this time, 146 individuals have                       participants from the U.S. Department of Housing
       been indicted, 112 have been convicted, and fines                       and Urban Development (HUD), IRS, SSA, local
       and restitution have totaled nearly $1.8 million.                       district attorney’s offices, and police departments.
 σσ    Bridge Card Enforcement Team. OIG investigators                    σσ   Recovery Board Referral Task Force. OIG is one of nine
       work with this team to investigate criminal SNAP and                    Federal agencies participating on this task force in
       WIC violations. Team members include the Michigan                       the Pacific Northwest, which is conducting a joint
       State Police and IRS investigators. The FBI, Social                     investigation based on a Recovery Board referral.
       Security Administration (SSA) OIG, and Department                  σσ   Western Region Inspectors General Council, Northwest
       of Homeland Security (DHS)’ Immigration and                             Inspectors General Council, and other Western Region
       Customs Enforcement have also helped during search                      Working Groups. OIG investigators work with these
       warrant operations. Since 2007, our teamwork has                        councils and groups to develop Recovery Act training,




14    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
                                                               Goal 2




      share information, discuss ongoing and potential                        RMA considered our comments and addressed some
      work of mutual interest, and strengthen working                         of them in the final SRA. For example, we noted that
      relationships. In addition, Western Region OIG                          RMA incorporated our suggestion for strengthening
      investigators organize and participate in meetings to                   provisions against conflicts of interest.
      enhance coordination between Federal, State, and local
      law enforcement agencies in the Pacific Northwest.
                                                                        ONGOING AND PLANNED REVIEWS FOR GOAL 2
OIG agents participated in other task forces and working
                                                                        Topics that will be covered in ongoing or planned reviews
groups related to benefits fraud, including:
                                                                        under Goal 2 include:
σσ    U.S. Attorney’s Bankruptcy Fraud Working
                                                                        σσ    school nutrition and food safety (FNS),
      Group in the Western District of Missouri;
                                                                        σσ    school meals (FNS),
σσ    Identity Fraud Task Force in the
      District of New Hampshire;                                        σσ    identifying CACFP risk (FNS),
σσ    Law Enforcement Coordinating Committee                            σσ    controls over the use of SNAP at group
      Conferences in Colorado, Iowa, Missouri,                                homes/oversight of the National Commodity
      Nebraska, South Dakota, and Wyoming;                                    Processing Program (FNS),
σσ    Four Corners Investigator Group, consisting of                    σσ    controls over electronic benefits
      Federal, State, and local fraud investigators from                      transfer (EBT) in WIC (FNS),
      Arizona, Colorado, Utah, and New Mexico; and                      σσ    vendor management and participant
σσ    Suspicious Activity Report Working Groups in locations                  eligibility in WIC (FNS),
      including Maine, Massachusetts, Michigan, New                     σσ    improper payments in the National School
      Hampshire, and North Carolina.                                          Lunch and School Breakfast Programs (FNS),
                                                                        σσ    SNAP improper payment rate improvement (FNS),
Review of Legislation, Regulations, Directives,                         σσ    CACFP followup (FNS),
and Memoranda
                                                                        σσ    National School Lunch Program – California (FNS),
σσ    Proposed Rule for Biomass Crop Assistance Program                 σσ    controls over FY 2010 food distribution programs:
      (BCAP). In April 2010, OIG formally commented                           buying fresh fruit and vegetables (FNS),
      on regulations CCC and FSA proposed in order
      to implement the new BCAP authorized by the                       σσ    2008 Farm Bill’s changes to payment limitation (FSA),
      2008 Farm Bill. We expressed concerns about                       σσ    BCAP collection, harvest, storage, and
      the options for determining matching payments,                          transportation matching payments (FSA),
      FSA’s mechanism for ensuring contract facility                    σσ    Conservation Reserve Program soil rental rates (FSA),
      performance, and inconsistencies in reducing
                                                                        σσ    ECP emergency disaster assistance for
      annual payments if an eligible crop is delivered to
                                                                              the 2008 natural disasters (FSA),
      a biomass conversion facility. In addition to our
      formal comments, the audit team has discussed                     σσ    verifying income eligibility for
      other policy, procedure, and administrative concerns                    program payments (FSA),
      with program managers and agency officials.                       σσ    Farm Storage Facility Loan Program (FSA),
σσ    SRA Renegotiation. The SRA sets the rules by which the            σσ    followup of compliance review process (FSA),
      Federal Crop Insurance Corporation (FCIC) subsidizes
                                                                        σσ    Dairy Economic Loss Assistance
      and reinsures insurance sold by approved providers.
                                                                              Payment Program (FSA),
      As mandated this year, RMA began renegotiating SRA
      provisions for 2011. We reviewed the draft revisions              σσ    automated controls over payment limitation
      and offered our comments in January and April 2010.                     direct attribution rule (FSA),




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half             15
                                                                 Goal 2




 σσ    Noninsured Crop Disaster Assistance Program (FSA),                 σσ    maintenance cost and inspection procedures (RHS),
 σσ    BCAP – project areas (FSA),                                        σσ    payment assistance recalculation/recapture (RHS),
 σσ    formula grants (NIFA),                                             σσ    controls over disaster assistance payments (RHS),
 σσ    agriculture and food research initiative (NIFA),                   σσ    Rural Rental Housing Management
 σσ    controls over biomass research and                                       Company in Indiana (RHS), and
       development grants (NIFA),                                         σσ    emergency relief and disaster assistance for past and
 σσ    controls over the Farm and Ranch Lands                                   future natural disasters (FSA, NRCS, and RD).
       Protection Program (NRCS),                                         The findings and recommendations from these efforts will
 σσ    Congressionally earmarked funds in FY                              be covered in future semiannual reports as the relevant
       2010 appropriations (NRCS),                                        audits and investigations are completed.
 σσ    equitable relief and waivers of
       improper payments (NRCS),                                          ONGOING AND PLANNED REVIEWS FOR GOAL 2
 σσ    controls over the Biorefinery Assistance Program (RBS),            UNDER RECOVERY ACT FUNDS
 σσ    Rural Economic Development Loan Program (RBS),
                                                                          Topics that will be covered in ongoing or planned reviews
 σσ    Rural Energy for America Program (RBS),                            for Goal 2 under the Recovery Act include:
 σσ    Rural Cooperative Development Grant
                                                                          σσ    SNAP EBT call centers outside
       Program eligibility and grant funds
                                                                                the United States (FNS),
       use for a Missouri entity (RBS),
                                                                          σσ    State SNAP fraud detection efforts (FNS),
 σσ    citrus indemnity payments resulting from
       2005 Florida hurricanes (RMA),                                     σσ    Recovery Act effect on SNAP – phases I & II (FNS),

 σσ    payments for 2005 citrus canker losses (RMA),                      σσ    administration of grants (FS),

 σσ    oversight of approved insurance providers’                         σσ    capital improvement and maintenance (FS),
       quality control process (RMA),                                     σσ    wildland fire management (FS),
 σσ    validity of new producers (RMA),                                   σσ    direct farm operating loans – phase II (FSA),
 σσ    NASS’ average yields (Multiagency),                                σσ    controls over aquaculture grants – phase II (FSA),
 σσ    AIP compliance with SRA supporting                                 σσ    supplemental agricultural disaster assistance programs
       document requirements (RMA),                                             and Recovery Act transition assistance (FSA),
 σσ    AIP compliance with pre-acceptance                                 σσ    watershed protection and flood prevention operations,
       inspection requirements for non-program                                  field confirmations – phases II & III (NRCS),
       crop insurance policies (RMA),                                     σσ    emergency watershed protection program
 σσ    compliance with inconsistent yield and                                   floodplain easements – phase III (NRCS),
       added land procedures (RMA),                                       σσ    emergency watershed protection program floodplain
 σσ    oversight of AIP transfers of agents, adjusters,                         easements – small land parcels (NRCS),
       and producer policies (RMA),                                       σσ    controls over the 2009 Agricultural Water
 σσ    oversight of organic crop insurance (RMA),                               Enhancement Program (NRCS),
 σσ    controls over prevented planting claims (RMA),                     σσ    rural business enterprise grants – phase II (RBS),
 σσ    AIPs’ reduction of inconsistent yields (RMA),                      σσ    B&I Guaranteed Loan Program – phase II (RBS),
 σσ    construction costs (RHS),                                          σσ    B&I Guaranteed Loan Program – phase III (RBS),
 σσ    project management companies (RHS),




16    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
                                                           Goal 2




σσ   lending institutions’ questionable use of Recovery             σσ    controls over the Rural Community Facilities
     Act funds for housing guaranteed loans (RHS),                        Program – phase II, construction loans (RHS),
σσ   single family housing direct loan                              σσ    controls over eligibility determinations for SFH
     effectiveness – phase III (RHS),                                     guaranteed loan stimulus funds – phase II (RHS),
σσ   Recovery Act servicing of single family                        σσ    Recovery Act performance measures and
     housing direct loans (RHS),                                          job creation for the Single Family Housing
σσ   single family housing direct loans – loan                            Guaranteed Loan Program – phase III (RHS),
     file compliance reviews (RHS),                                 σσ    evaluation of loss claims related to Recovery
σσ   single family housing direct loans                                   Act funds distributed through SFH
     controls testing – phase II (RHS),                                   Guaranteed Loan Program (RHS), and

σσ   controls over the Rural Community Facilities Direct            σσ    monitoring implementation of trade adjustment
     Grant and Loan Programs – phase II (RHS),                            assistance for farmers (FAS and FSA).
                                                                    We will cover the findings and recommendations from
                                                                    these efforts in future semiannual reports as we complete
                                                                    the relevant audits and investigations.




                                                              USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half           17
                                                                     Goal 3




Management Improvement Initiatives
OIG Strategic Goal 3:                                                     EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR
                                                                          GOAL 3
Support USDA in implementing its management
improvement initiatives.                                                  Followup on AMS’ Purchasing of Frozen Ground Beef
                                                                          OIG identified significant opportunities for AMS to improve
OIG conducts audits and investigations that focus on such
                                                                          its controls in the following areas: (1) monitoring beef supplier
areas as improved financial management and accountability, IT
                                                                          and laboratory performance, (2) selecting product samples
security and management, research, real property management,
                                                                          for more accurate representative testing, and (3) assessing
employee corruption, and the Government Performance
                                                                          the financial risks that USDA faces with large beef suppliers,
and Results Act. Our work in this area is vital because the
                                                                          including ways to mitigate these risks in a cost-beneficial
Department is entrusted with $128 billion in public resources
                                                                          manner. Due to a beef supplier’s bankruptcy, the agency was
annually. The effectiveness and efficiency with which USDA
                                                                          required to pay over $13 million to cover the costs associated
manages its assets are critical. USDA depends on IT to
                                                                          with the largest beef recall in U.S. history (20 million pounds).
efficiently and effectively deliver its programs and to provide
                                                                          The agency generally agreed with our recommendations.
meaningful and reliable financial reporting. One of the more
                                                                          (Audit Report 01601-02-Hy, Follow up on Purchases of Frozen
significant dangers USDA faces is a cyber-attack on its IT
                                                                          Ground Beef )
infrastructure, whether by terrorists attempting to thwart
national security or by criminals seeking economic gain.                  USDA Has Met Assigned Disaster Response
In the second half of FY 2010, we devoted 29 percent of                   Requirements
our total direct resources to Goal 3, of which 71 percent was             USDA coordinates and supports disaster response as part of
assigned to critical/high-impact work. One hundred percent                a wider DHS plan to handle large-scale emergencies. DHS
of our audit recommendations under Goal 3 resulted in                     OIG provided 14 researchable questions related to DHS’
management decision within 1 year, and 74 percent of our                  National Response Framework Emergency Support Function
investigative cases resulted in criminal, civil, or administrative        11 “Agriculture and Natural Resources” to be answered about
action. OIG issued 16 audit reports under Goal 3 during this              USDA’s preparedness. We determined that the Department
reporting period; our investigations under Goal 3 yielded                 has appropriately fulfilled their assigned responsibilities.
33 indictments, 17 convictions, and $10.3 million in monetary             USDA’s agencies with disaster response roles have also fulfilled
results.                                                                  their duties. (Audit Report 42099-04-HQ, Assessment of the
                                                                          USDA’s Disaster Response Capabilities)




  Management Challenges Addressed UNDER GOAL 3
  σσ     Implementation of Strong, Integrated, Internal Control Systems Still Needed (also under Goal 1 and 2)
  σσ     Continuing Improvements Needed in IT Security
  σσ     Implementation of the Recovery Act (also under Goals 2 and 4)




18     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
                                                                    Goal 3




RUS Could Improve Process for Approving Water and                        and by the National Finance Center (NFC), presented fairly,
Waste Disposal System Loans and Grants                                   in all material ways, the relevant aspects of the controls in
                                                                         operation as of June 2010. Also, the controls included in the
RUS officials can enhance their procedures for approving water
                                                                         description were suitably designed and operating with sufficient
and waste disposal system loans and grants by: (1) providing
                                                                         effectiveness to provide reasonable assurance that associated
additional guidance on the appropriate use of special income
                                                                         objectives would be achieved. (Audit Report 88501-14-FM,
studies when census data are questionable, (2) establishing
                                                                         Statement on Auditing Standards No. 70 Report on the NITC
more specific instructions to better document health and
                                                                         General Controls – FY 2010; Audit Report 11401-33-FM,
sanitary problems, and (3) making grant and interest rate
                                                                         Statement on Auditing Standards No. 70 Report on the NFC
eligibility determinations. Rural Development agreed with our
                                                                         General Controls – FY 2010)
recommendations to strengthen these aspects of the program.
(Audit Report 09601-1-At, Controls over the Water and Waste              Retirement, Health, and Life Insurance Withholdings/
Disposal Loan and Grant Program)                                         Contributions Were Reasonable
USDA Needs To Implement a More Effective                                 We assessed the reasonableness of retirement, health, and life
Suspension and Debarment Program                                         insurance withholdings and contributions as well as employee
                                                                         data submitted by OCFO and NFC. We found nothing that
Our audit determined that USDA agencies were not
                                                                         exceeded allowable thresholds. (Audit Report 11401-32-FM,
suspending and debarring program participants when
                                                                         Agreed-Upon Procedures: Retirement, Health Benefits, and
warranted to maintain program integrity and to protect the
                                                                         Life Insurance Withholdings/Contributions and Supplemental
Government’s interest. For example, between 2004 and 2007,
                                                                         Semiannual Headcount Report Submitted to the Office of
agencies did not suspend or debar 1,035 program participants
                                                                         Personnel Management)
even though they already had been convicted by criminal
courts. Similarly, between 2004 and 2008, FNS did not                    FSA Should Strengthen Oversight of Loan Collateral
suspend or debar 3,981 SNAP retailers and wholesalers who                While FSA’s direct operating loans were adequately secured,
violated program regulations.                                            we found that 25 percent of the borrowers we visited had
Agencies indicated that these exclusions were in the public’s            removed loan collateral without authorization. Additionally,
best interest and consistent with statutes balancing program             we identified loan servicing issues that needed to be corrected
access. However, the agencies have provided no statutory                 in order to protect FSA’s interests. We recommended that FSA
language that, in our analysis, justifies the exclusions. We             should strengthen its oversight of loan collateral to ensure that
maintain that the public’s interest may be better served by              it is not removed without authorization, and, if it is, that the
ensuring the integrity of funds and programs and deterring               circumstances are documented and appropriate enforcement
others bent on misusing Federal funds and benefits.                      action is taken. FSA officials agreed with our recommendations.
Accordingly, we recommended that USDA provide adequate                   (Audit Report 03601-18-Ch, FSA Farm Loan Security)
legal justification or acceptable program rationale for excluding        Corporation Agrees to Pay Back $4.5 Million for
programs from suspension and debarment. We continue to                   Improperly Billed Training
work with USDA to reach agreement on the corrective actions
needed to address our recommendations. (Audit Report 50601-              USDA OIG and GSA OIG worked jointly to investigate a
14-At, Effectiveness and Enforcement of Debarment and                    corporation that provides international IT and education
Suspension Regulations)                                                  training to business and government organizations. The
                                                                         corporation provided multiple computer software training
OCIO/NITC, and OCIO/NFC Receive Unqualified                              courses and services to the Federal Government through a
Opinions on Controls                                                     pre-paid voucher system. Information developed from a prior
In two separate reports, we determined that the description              investigation of a different company found evidence that this
of controls by the Office of the Chief Information Officer               corporation improperly billed and collected payments from the
(OCIO)/National Information Technology Center (NITC),                    Government for computer software training before providing




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half        19
                                                                   Goal 3




the services and then kept millions of dollars for training             FS Special Agent Incarcerated for Assaulting Three
services that were not actually provided from October 1996              Co-Workers
through September 2007. Among the USDA agencies that paid
                                                                        An OIG investigation determined that a male FS special agent
for the corporation’s services were APHIS, ARS, Economic
                                                                        sexually assaulted three female FS colleagues during a social
Research Service (ERS), FNS, FS, FSA, FSIS, NASS, NFC,
                                                                        gathering in June 2009. The gathering took place after agency-
OCIO, and RMA.
                                                                        sponsored training led by the special agent which the victims
In April 2010, a civil settlement agreement was entered and             attended. The agent was charged with 11 counts of criminal
executed by the corporation and the Government. As part of              sexual conduct and 3 counts of assault and battery. He was
this agreement, the corporation agreed to pay back a total of           convicted at trial of three counts of criminal sexual misconduct
$4.5 million.                                                           and one count of assault and battery. In June 2010, the subject
                                                                        was sentenced to 9 months of incarceration and has been
Two Brothers Convicted for Stealing USDA and Other
                                                                        registered as a sex offender.
Government Property
A joint investigation involving USDA OIG, GSA OIG, and                  Former FS Employee Received Workers’
other agencies found that a Federal Aviation Administration             Compensation While Owning and Operating a
(FAA) employee and his brother illegally gained access to the           Company That Was Awarded FS Contracts in Oregon
GSA Excess Personal Property Transfer System and stole over             Our joint investigation with the U.S. Department of Labor
215 items belonging to the Government with a total value of             (USDOL) OIG revealed that a former FS employee owned
approximately $3 million. These items included an airplane,             and operated a company that contracted with FS to clear
trucks, vehicles, and other items belonging to USDA; a U.S.             brush from roadways in the Willamette National Forest in
Navy yacht, and other items belonging to various Federal                Oregon, earning about $265,000 from 2003 through 2007. At
agencies. In June 2009, one of the individuals was found guilty         the same time, he received workers’ compensation for a back
in Federal court of wire fraud and theft of honest services. He         injury sustained on the job as an FS employee, but he did not
was sentenced to 54 months in prison, 3 years of probation,             report income from self-employment to the USDOL Office
and restitution of $239,688. In March 2010, the FAA                     of Workers Compensation Programs (OWCP). In June 2010,
employee pled guilty to wire fraud and theft of honest services.        he was convicted in Federal court, sentenced to 12 months of
He was sentenced in June 2010 and received 42 months in                 probation, and ordered to pay $48,118 in restitution to the
prison, 3 years of probation, 100 hours of community service,           Government after he pled guilty to one misdemeanor count of
and restitution totaling $186,619. Also, in July 2010, the court        knowingly and willfully making false statements and concealing
ordered the forfeiture of the yacht and $25,100 that had been           a material fact. OWCP estimates that the results of this
seized during the investigation.                                        investigation will include $209,000 in cost avoidance.

                                                                        FS Employee Sentenced to Prison for Conspiracy
                                                                        and Theft
                                                                        In December 2009, a former FS employee in Florida pled
                                                                        guilty in Federal court to theft of Government funds and
                                                                        conspiracy to defraud. The employee admitted that he, along
                                                                        with an FS volunteer, stole materials from the agency, and
                                                                        that he also conspired with a family friend to be awarded
                                                                        FS contracts. The family friend was sentenced to 3 years of
                                                                        probation and was ordered to pay $18,780 in restitution; the
                                                                        volunteer was sentenced to 1 year of probation and was ordered
                                                                        to pay $500 in restitution; and the former FS employee was
(2) Recovered USDA plane. Alabama Forestry Commission photo




20     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
                                                                   Goal 3




sentenced to 1 year in Federal prison and was ordered to pay            in order to accurately reflect the internal controls used to
$19,754 in restitution.                                                 monitor facility improvements projects. FNS concurred with
                                                                        this recommendation and agreed to obtain OMB approval of
Former FSA Employee Sentenced for Embezzling
                                                                        the revised Recovery Act Plan. (Audit Report 27703-02-HQ,
Loan Funds
                                                                        American Recovery and Reinvestment Act of 2009, Food
In March 2010, a former FSA program specialist in Nebraska              Distribution Program on Indian Reservations)
pled guilty in Federal court to wire fraud after our investigation
uncovered her scheme to embezzle funds from FSA while she
                                                                        OCFO Needs to Assign More Staff to Develop Data
serviced her own CCC loans. The former employee admitted                Quality and Proper Reporting Processes
that she backdated loan repayment dates and entered false               Maintaining data quality and reporting properly are key to
repayment rates in the FSA database relating to loans made to           ensuring that USDA, its agencies, programs, and recipients
herself and her husband in 2007. As a result, she defrauded             are transparent and accountable in their use of Recovery Act
FSA of $44,435. In addition, the woman averted a further                funds. In general, we concluded that the controls and the
$31,673 in liquidated damages that FSA could have assessed for          methodologies used differed significantly from agency to
noncompliance with loan terms. As part of her plea agreement,           agency, resulting in errors and material omissions not being
the woman settled the balance owed to FSA totaling $44,435.             corrected. Our review of USDA’s 3,065 awards identified 450
In June 2010, she was sentenced to serve 8 months of house              instances in which the recipient-reported award numbers on
arrest followed by 48 months of probation.                              FederalReporting.gov did not match the agency-reported award
                                                                        numbers on USDA’s control list, a discrepancy which OMB
Former FSA Program Technician Pleads Guilty to
                                                                        considers a significant error. OCFO has not implemented
Theft of Funds
                                                                        internal controls to ensure that agencies’ monitoring efforts
Between September and October 2009, an FSA program                      are consistent, effective, and complete, due partly to having
technician in Montana destroyed at least six USDA forms in              only one staff member to monitor such issues and develop
order to increase her husband’s loan deficiency payment by              agency guidance. Accordingly, we recommended, with
$14,680. The woman admitted that she defrauded FSA and                  OCFO’s agreement, that sufficient staff be assigned to develop
resigned her position with the agency. In May 2010, she was             a process to ensure proper reporting and consistent agency
indicted in Federal court on two felony counts of theft of              reviews. (Audit Report 50703-1-DA, American Recovery
Government funds and acts affecting a financial interest; she           and Reinvestment Act – Review of the Effectiveness of the
subsequently pled guilty. Her sentence is pending.                      Department/Agency Data Quality (USDA))

                                                                        Multiagency, Governmentwide Audit of Agency
RECOVERY ACT REVIEWS                                                    Recipient Reporting Controls
FNS Management Control Guidance Deviates from                           OIGs for six Federal agencies—the Department of Defense,
Recovery Act Plan                                                       the Environmental Protection Agency, the National Science
                                                                        Foundation, HUD, GSA, and USDA—participated in this
FNS’ guidance for maintaining oversight of its Recovery Act-
                                                                        audit of recipient reporting controls in agencies throughout
funded Food Distribution Program on Indian Reservations
                                                                        the Government. USDA OIG coordinated this audit for the
was not consistent with its Recovery Act plan that the Office of
                                                                        Recovery Board. In general, we found that agencies had issued
Management and Budget (OMB) approved in the area relating
                                                                        appropriate policies and procedures, but material omissions and
to projects that involve construction, such as roof repairs and
                                                                        significant errors were not identified or reported when agencies
cooling/heating system replacement. FNS’ guidance stated
                                                                        did not have internal controls to ensure that monitoring efforts
that staff could conduct desk reviews rather than requiring the
                                                                        were consistent, effective, and complete.
on-site facility reviews described in its official Recovery Act
plan. Accordingly, we recommended that FNS ensure that the              As appropriate at the agency level, it was recommended that
guidance and the program’s Recovery Act plan be consistent              agencies ensure all awards are reported accurately and that




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half         21
                                                                  Goal 3




they review recipient data to identify material omissions              In July 2009, ARS used Recovery Act funding to award a task
and significant errors. At the overall Federal level, we               order to Perkins + Will, Inc., of Atlanta, Georgia, to study
recommended that the Recovery Board pursue discussions with            replacing the steam distribution system, including boilers and
the appropriate Government entities about (1) establishing a           electrical system, for the Area Research Center in Beltsville,
uniform, consistent Governmentwide award numbering system              Maryland. Lacking guidance on Recovery Act policies and
for Recovery Act recipients; (2) making suggested logic checks         procedures, the recipient did not report its award information
mandatory; and (3) issuing guidance for identifying significant        correctly. ARS agreed with our findings and implemented our
omissions. (Audit Report 50703-2-DA, American Recovery                 recommendations. (Audit Report 02703-01-HQ, General
and Reinvestment Act – Review of the Effectiveness of the              Procurement Oversight Audit of Beltsville’s Agriculture
Department/Agency Data Quality (Governmentwide))                       Research Center Steam Study Task Order Awarded to Perkins +
                                                                       Will, Inc.)
Lack of Policies and Procedures to Ensure Recovery
Act Reporting                                                          ARS also awarded a contract to RMF Engineering, Inc., for
                                                                       design, bid, and construction management services to renovate
In auditing contracts undertaken to improve facilities, we
                                                                       bathrooms, repair brickwork, and replace windows at the
determined that USDA agencies lacked documented policies
                                                                       National Agricultural Library in Beltsville, Maryland, but
and procedures to ensure proper Recovery Act reporting,
                                                                       the agency did not have internally documented processes and
which resulted in reduced transparency, untimely reporting, or
                                                                       procedures for monitoring and reviewing the information the
erroneous reports.
                                                                       recipient and agency reported on Recovery.gov. These conditions
USDA’s Management Services awarded a Recovery Act contract             were noted in an earlier review of a construction contract.
for over $16.5 million to modernize a wing of its Headquarters         ARS implemented corrective actions by issuing policies and
building in Washington, DC. While we found no contract                 procedures; therefore no further recommendations were made.
administration issues, the award was not reported timely to            (Audit Report 02703-02-HQ, General Procurement Oversight
Recovery.gov. Management Services agreed with the report’s             Audit of Architectural and Engineering Services Contracts
findings and has implemented corrective actions. Management            Awarded by Agricultural Research Service to RMF Engineering,
Services has developed and released policies and procedures to         Inc.)
ensure future Recovery Act reporting is accurate and timely.




22     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
                                                              Goal 3




GOVERNMENTWIDE ACTIVITIES – GOAL 3                                     Participation on Committees, Working Groups,
                                                                       and Task Forces
Review of Legislation, Regulations, Directives,
and Memoranda                                                          σσ   Financial Statement Audit Network Workgroup. This
                                                                            workgroup—which consists of auditors from many
σσ   GAO/President’s Council on Integrity and Efficiency                    OIGs—meets to share ideas about, knowledge of,
     (PCIE, now CIGIE) Financial Audit Manual                               and experience with Federal financial statement
     Update. As part of a workgroup, GAO asked the                          audits. In April 2010, under the workgroup’s
     financial statement audit network for suggested                        auspices, USDA OIG hosted the CIGIE/GAO
     updates to the GAO/PCIE Financial Audit                                Annual Financial Statement Audit Conference.
     Manual. We recommended that GAO consider
                                                                       σσ   Federal Audit Executive Council. Council members
     changing the title of the Service Organization
                                                                            include auditors from many Federal OIGs who
     Report, Statement Auditing Standards (SAS) 70, to
                                                                            meet to discuss issues that affect the Government’s
     reflect the Statement on Standards for Attestation
                                                                            audit community, especially regarding audit
     Engagements 16, Reporting on Controls at a
                                                                            policy and operations. USDA OIG’s Assistant
     Service Organization, which replaced SAS 70.
                                                                            Inspector General for Audit chaired the council’s
σσ   Whistleblower Protection Enhancement Act of 2010.                      audit committee, which focused on reviewing
     OIG reviewed this bill and supports its objective                      GAO’s proposed changes to auditing standards
     of expanding protections for individuals engaged                       and evaluating Federal OIG peer reviews.
     in credible whistleblower-type activities. However,
                                                                       σσ   Intra-Departmental Coordinating Committee on
     a provision that would require all IGs to have a
                                                                            International Affairs. USDA OIG auditors continue
     “Whistleblower Protection Ombudsman” who
                                                                            to serve on this committee. Headed by FAS, part
     would educate and advise agency personnel appears
                                                                            of the purpose of the committee (which includes
     to be contrary to OIG’s role under the Inspector
                                                                            most USDA agencies) is to coordinate international
     General Act of 1978. The law charges OIGs with
                                                                            activities. Some of the committee’s issues included
     operating independently and objectively within
                                                                            USDA’s role in implementing the President’s national
     their respective establishments, which seems
                                                                            export initiative and the Department’s global
     inconsistent with a whistleblower protection
                                                                            market strategy; reconstruction in Haiti, Pakistan,
     advocacy and advisory role. OIGs are also prohibited
                                                                            and Afghanistan; and international food security
     from exercising program operating responsibilities
                                                                            and assistance. Our comments on a draft of the
     and managing agency programs, which the
                                                                            Department’s global market strategy stressed the
     proposed legislation would appear to require.
                                                                            need for performance measures and milestones.
σσ   Overseas Contractor Reform Act. OIG reviewed this bill
                                                                            As part of our involvement, OIG also attends the
     and, in general, supports its objective of expanding
                                                                            Pakistan and Afghanistan team meetings. The
     the use of debarment. However, we suggested that
                                                                            Department is receiving funds from the United
     the bill be amended to make clear that it refers to
                                                                            States Agency for International Development
     Governmentwide debarment under the FAR and
                                                                            (USAID) under the Foreign Assistance Act to
     Nonprocurement Common Rule.
                                                                            help reconstruction and development in Pakistan
                                                                            and Afghanistan. Section 632(a) of the Act gives
                                                                            audit and fiduciary responsibilities to OIG, so
                                                                            we continue to work with the Department and
                                                                            USAID to ensure accountability and oversight
                                                                            for grants and agreements that use these funds.
                                                                       σσ   Inter-Agency Suspension and Debarment Committee.
                                                                            A USDA OIG auditor and an attorney continue to




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half           23
                                                                   Goal 3




       serve on this committee, which works to advance                            Act. Subsequently, these concerns were addressed in the
       the use of suspension and debarment as a Federal                           Inspector General Authority Improvement Act of 2010,
       enforcement option. The auditor has also co-chaired                        H.R. 5815, which was reported favorably to the full
       a subcommittee for parallel proceedings, which                             House in July 2010.
       promotes pursuing contemporaneous criminal,
       civil, and suspension and debarment actions
                                                                            ONGOING AND PLANNED REVIEWS FOR GOAL 3
       against those who abuse Federal programs.
 σσ    National Procurement Fraud Task Force. OIG is a                      Topics that will be covered in ongoing or planned reviews
       member of this task force, formed by the Department                  under Goal 3 include:
       of Justice (DOJ) in October 2006 as a partnership                    σσ    oversight of Federally authorized research
       among Federal agencies charged with investigating                          and promotion boards (AMS),
       and prosecuting Government contracting and
                                                                            σσ    beef research and promotion board activities (AMS),
       grant illegalities. The task force has worked to
       better allocate resources, improve coordination in                   σσ    private voluntary organizations’ grant
       procurement and grant fraud cases, and accelerate                          fund accountability (FAS),
       their investigation and prosecution. At the regional                 σσ    USDA food aid coordination and delivery (FAS),
       level, OIG investigations field offices in the Northeast,
                                                                            σσ    management oversight and controls over
       Great Plains, Midwest, Southeast, Southwest, and
                                                                                  the Market Access Program (FAS),
       Western Regions participate in procurement fraud
       task forces initiated by the local U.S. attorneys’                   σσ    acquiring IT software and hardware (FS),
       offices. The Counsel to the IG participates as a                     σσ    controls over economic adjustment assistance
       member of the task force’s legislation committee.                          to users of upland cotton (FSA),
 σσ    CIGIE IT Groups. The National Computer Forensic                      σσ    annual audits of the Department and agencies’
       Division works with a CIGIE subcommittee and                               financial statements for FYs 2010 and 2011 (OCFO),
       working group concerned with IT investigations,                      σσ    FY 2011 NFC general controls (OCIO),
       computer forensics, and nationwide issues
       such as Internet connection integrity.                               σσ    FY 2011 NITC general controls (OCIO),

 σσ    FBI’s Heart of America Regional Computer Forensics                   σσ    security over remote access of USDA
       Laboratory. An analyst from OIG’s computer                                 information systems (OCIO),
       forensics division works full-time with the laboratory               σσ    secure domain system deployment in USDA (OCIO),
       and has helped us obtain direct access to regional                   σσ    oversight of USDA’s BigFix implementation (OCIO),
       laboratories, training, samples of applicable
                                                                            σσ    FY 2010 Federal Information Security
       policies and procedures, and, when needed, FBI
                                                                                  Management Act review (OCIO),
       assistance for OIG computer forensic work.
                                                                            σσ    review of International Technology Service (OCIO),
 σσ    CIGIE’s Legislation Committee. On an ongoing basis,
       OIG personnel monitored and tracked all IG-related                   σσ    Small Business Innovation Research Program (NIFA),
       legislation that was introduced in Congress and                      σσ    Farm and Ranch Lands Protection Program
       kept affected IGs notified about those bills’ progress.                    controls in Michigan (NRCS),
       Committee members met with Senate Homeland
                                                                            σσ    using the geospatial information system (NRCS),
       Security and Governmental Affairs Committee staff
       and House Oversight and Government Reform                            σσ    database analysis (Rural Development),
       Committee staff about technical amendments to the                    σσ    controls over water and waste disposal
       Inspector General Reform Act of 2008, and discussed                        loan and grant programs (RUS),
       IG concerns about mission impediments imposed by                     σσ    contracting reorganization for domestic and
       the Paperwork Reduction Act and Computer Matching                          foreign procurements (AMS, FNS, and FSA),




24    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
                                                            Goal 3




σσ    international trade policies and                               σσ    oversight of IT infrastructure improvement (FSA),
      procedures (APHIS and FAS),                                    σσ    WIC management information systems (FNS),
σσ    section 632(a) funds transferred from USAID to                 σσ    National School Lunch Program
      USDA (APHIS, ARS, FAS, NASS, and NIFA),                              equipment assistance funding (FNS),
σσ    Departmental oversight of the Deepwater Horizon oil            σσ    healthy forest initiative (FS),
      spill (APHIS, FNS, NRCS, and Rural Development),
                                                                     σσ    wood to energy projects (FS),
σσ    monitoring the development of the 2012
                                                                     σσ    confirming individual rural business
      Farm Bill (all USDA agencies except FS),
                                                                           enterprise grants – phase II (RBS),
σσ    review of Departmental accountability for actions
                                                                     σσ    rural business enterprise grants – phase III (RBS),
      taken in the civil rights program (USDA), and
                                                                     σσ    controls over water and waste loans and
σσ    management and security over wireless
                                                                           grants – phase II (RUS), and
      handheld devices (USDA).
                                                                     σσ    USDA’s oversight of recipient-reported data
We will cover the findings and recommendations from
                                                                           focusing on jobs created (Departmental).
these efforts in future semiannual reports as we complete
the relevant audits and investigations.                              We will cover the findings and recommendations from
                                                                     these efforts in future semiannual reports as we complete
                                                                     the relevant audits and investigations.
ONGOING AND PLANNED REVIEWS FOR GOAL 3
UNDER RECOVERY ACT FUNDS
Topics that will be covered in ongoing or planned reviews
for Goal 3 under the Recovery Act include:
σσ    review of selected contractors use of
      Recovery Act funds (ARS),




                                                               USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half           25
                                                                     Goal 4




Stewardship Over Natural Resources

OIG Strategic Goal 4:                                                     EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR
                                                                          GOAL 4
Increase the efficiency and effectiveness with which
USDA manages and exercises stewardship over                               South Dakota Man Sentenced as a Result of
natural resources.                                                        Defrauding FSA, NRCS, and the U. S. Fish and Wildlife
                                                                          Service
OIG’s audits and investigations focus on USDA’s management
                                                                          An Alpena, South Dakota, man was indicted in August 2009
and stewardship of natural resources, including soil, water,
                                                                          in Federal court for making false statements and providing
and recreational settings. Our work in this area is vital because
                                                                          fabricated documents to NRCS to receive reimbursement
USDA is entrusted with hundreds of billions of dollars in
                                                                          of $18,368 for restoration of a Wetlands Reserve Program
fixed public assets, such as 193 million acres of national forests
                                                                          easement. This individual also made false statements to FSA
and wetlands. USDA also provides scientific and technical
                                                                          and the U.S. Fish and Wildlife Service to receive almost
knowledge to enhance and protect the economic productivity
                                                                          $40,000 in reimbursements for various other projects. The man
and environmental quality of an estimated 1.5 billion acres of
                                                                          subsequently pled guilty and was sentenced to serve 36 months
forests and associated rangelands in the United States.
                                                                          of probation and to pay restitution of $17,831 and a fine of
In the second half of FY 2010, we devoted 7 percent of our                $50,000.
total direct resources to Goal 4, of which 99.9 percent was
assigned to critical/high-impact work. One hundred percent
of our audit recommendations under Goal 4 resulted in                     RECOVERY ACT REVIEWS
management decision within 1 year, and 67 percent of our                  FS Paid a Grant Recipient Without Adequate
investigative cases resulted in criminal, civil, or administrative        Supporting Documents
action. OIG issued 1 audit report and 8 Recovery Act
                                                                          In reviewing FS’ Recovery Act payments to grantees, we found
fast reports under Goal 4 during this reporting period;
                                                                          several cases where FS approved payments without adequate
our investigations under Goal 4 yielded 2 indictments, 2
                                                                          documents to ensure expenditures and disbursements met
convictions, and $75,981 in monetary results.
                                                                          Recovery Act and grant agreement requirements, such as
                                                                          disbursing funds for actual expenditures rather than anticipated
                                                                          expenses. We identified these concerns in three fast reports.
 Management Challenges Addressed UNDER GOAL 4
                                                                          σσ    FS disbursed funds for a grant recipient’s payment requests
 σσ     Better FS Management and Community Action                               without receiving adequate supporting documents to verify
        Needed To Improve the Health of the National                            that previous disbursements were spent for authorized
        Forests and To Reduce the Cost of Fighting Fires                        purposes. Recovery Act Fast Report (Audit Report 08703-
 σσ     Implementation of the Recovery Act                                      01-SF(1), Recovery Act – FS Wood To Energy Projects)
        (also under Goals 2 and 3)                                        σσ    FS reimbursed a grant recipient $1.4 million though records
                                                                                showed only $160,882 had been spent. The recipient had
                                                                                a contractual obligation to pay a vendor the additional
                                                                                $1.2 million, but the grant agreement specified that requests
                                                                                for payments should be based on actual cash disbursements.
                                                                                Recovery Act Fast Report (Audit Report 08703-01-
                                                                                SF(2), Recovery Act – FS Wood to Energy Projects)
                                                                          σσ    FS provided $3.9 million in Recovery Act funds to grant
                                                                                recipients that did not maintain adequate documents to
                                                                                support pre-award costs. In addition, the grantees did
                                                                                not maintain documents supporting expenditures as
                                                                                required. Recovery Act Fast Report (Audit Report 08703-
                                                                                01-SF(3), Recovery Act – FS Wood To Energy Projects)




26      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
                                                                 Goal 4




In general, FS agreed with OIG recommendations to verify the          justified. FS generally agreed with our recommendations.
expenditures against supporting documents, monitor requests           Recovery Act Fast Report (Audit Report 08703-05-SF(2),
more closely, and recover any improper payments.                      Recovery Act – FS Hazardous Fuels Reduction and Ecosystem
                                                                      Restoration on Non-Federal Lands)
FS Did Not Adequately Monitor a Windows
Replacement Project                                                   NRCS Program Decisions to Purchase Easements on
The Olympia National Forest (an FS administrative division)           Small Tracts of Land and Valuation Methodologies
awarded a $250,650 contract using Recovery Act funds to               Used to Compensate Landowners Questioned
replace 150 windows for its laboratory, but had no evidence to        In June 2009, 289 applications, totaling $138 million, were
demonstrate that FS properly monitored the project to ensure          approved by NRCS for its watershed and flood protection
the windows were installed according to contract requirements.        program. We identified internal control issues related to NRCS’
FS officials agreed with our findings that they should have           purchase of floodplain easements with these funds, which
examined documents supporting proper installation and                 we reported to NRCS’ Chief in two fast reports (August and
monitored the project more closely. Recovery Act Fast Report          November of 2009):
(Audit Report 08703-02-SF(2), Recovery Act - FS Facility
                                                                      σσ    Our first report determined that NRCS needed to develop
Improvement, Maintenance & Rehabilitation)                                  standard operating procedures for purchasing easements
Oregon’s Community College and Workforce                                    on small parcels with structures and to incorporate these
                                                                            procedures into the agency’s program manual. Recovery
Development (CCWD) Charged FS for Unrelated
                                                                            Act Fast Report (Audit Report 10703-1-KC(1))
Activities and Allocated Expenditures Arbitrarily
                                                                      σσ    Our second report found that NRCS did not determine
CCWD had three programs funded with FS’ Recovery Act                        easements’ values using its normal method, but instead
funds—both non-Federal and Federal hazardous fuels reduction                used an alternative methodology (the same used for
and trail maintenance—but charged some expenses unrelated                   Wetlands Reserve Program easements) due to Recovery
to the programs and arbitrarily allocated expenses between the              Act time constraints. However, the Office of the General
three. For example, CCWD charged FS for landscaping and                     Counsel (OGC) opined that it would be prudent for
grounds-keeping work at public facilities. FS agreed to recover             NRCS to document its decision-making process to support
any funds not used to meet the programs’ goals and to ensure                the alternate valuation methodology. Accordingly, we
that charges were properly allocated, but disagreed that some of            recommended, with NRCS’ concurrence, that the agency
the work in question was unrelated to these goals. Recovery Act             stop approving easement agreements until it demonstrates
                                                                            that the normal appraisal method is not practicable.
Fast Report (Audit Report 08703-04-SF (1), Recovery Act – FS
                                                                            Recovery Act Fast Report (Audit Report 10703-1-KC(2))
Trail Maintenance and Decommissioning)
                                                                      We compiled these findings into one report and included
FS Lacked Guidance About Purchasing Recovery                          NRCS’ proposed corrective actions in response to the
Act-Funded Equipment                                                  weaknesses we identified. (Audit Report 10703-1-KC,
As part of Recovery Act-funded hazardous fuels reduction              American Recovery and Reinvestment Act - Emergency
activities, Florida planned to use $1.2 million to buy mowers         Watershed Protection Program Floodplain Easements —
and the trucks to transport them, and $2.1 million for                Phase I)
equipment such as fire engines, bulldozers, and pickup trucks.
                                                                      NRCS Should Consider Unemployment Rates When
However, we determined that the State did not adequately
                                                                      Funding Watershed Protection and Flood Prevention
support its need for the mowers and trucks, or its decision to
buy rather than lease the other equipment. Since FS staff at
                                                                      Projects
its recovery operations centers did not have guidance about           The Recovery Act provided $145 million to NRCS’ Watershed
Recovery Act-funded equipment purchases, we recommended               Protection and Flood Prevention Operations Program to help
that the agency develop such guidance and review all grant            protect watersheds, mitigate floods, and improve water quality.
agreements to ensure that the equipment purchases were                However, we questioned if NRCS’ project funding best met




                                                                    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half        27
                                                                 Goal 4




the Act’s overall goal of creating jobs in economically distressed    FS Should Ensure Mine Remediation Contracts Are
areas. NRCS funded 75 projects (totaling $59 million) in areas        Reviewed
where unemployment rates were less than the national average
                                                                      FS approved using $22.7 million in Recovery Act funds to
(8.1 percent) and rejected funding for 45 projects (totaling $97
                                                                      remediate abandoned mines, but agency staff at three of its
million) in areas where the unemployment rate was greater than
                                                                      recovery operation centers were not reviewing 10 percent of the
the national average. NRCS agreed to consider unemployment
                                                                      remediation contracts as required, which weakened the agency’s
rates in future funding decisions but maintained that its
                                                                      oversight. We recommended, with FS’ concurrence, that the
decisions were based partly on which projects could be started
                                                                      agency remind its staff of their review responsibilities and
timely, and met Recovery Act criteria. (Audit Report 10703-
                                                                      issue guidance specifying how and when the reviews should be
2-KC, American Recovery and Reinvestment Act Watershed
                                                                      conducted. Recovery Act Fast Report (Audit Report 08703-06-
Protection and Flood Prevention Operations Program – Phase
                                                                      SF(2), Recovery Act – FS Abandoned Mine Remediation)
I)




28     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
                                                             Goal 4




GOVERNMENTWIDE ACTIVITIES - GOAL 4                                    ONGOING AND PLANNED REVIEWS FOR GOAL 4
                                                                      UNDER RECOVERY ACT FUNDS
Participation on Committees, Working Groups,
and Task Forces                                                       Topics that will be covered in ongoing or planned reviews
                                                                      for Goal 4 under the Recovery Act include:
σσ    New Hampshire Environmental Crimes Working Group.  
      An OIG agent has joined this newly-established                  σσ    oversight and control of FS activities,
      working group in the District of New Hampshire,                 σσ    oversight and control of watershed and flood
      which was convened by the U.S. Attorney there to                      prevention operations (NRCS), and
      enhance the cooperation and capabilities of member
                                                                      σσ    oversight and control of the Watershed
      agencies in enforcing their respective environmental
                                                                            Rehabilitation Program (NRCS).
      laws, as well as to exchange information and provide
      prosecutorial support and training opportunities.               We will cover the findings and recommendations from
                                                                      these efforts in future semiannual reports as we complete
ONGOING AND PLANNED REVIEWS FOR GOAL 4                                the relevant audits and investigations.

Topics that will be covered in ongoing or planned reviews
under Goal 4 include:
σσ    controls and management of drug enforcement
      issues on national forest land (FS),
σσ    obtaining and granting rights-of-
      way and easements (FS),
σσ    administering special use permits (FS),
σσ    Forest Legacy Program (FS), and
σσ    Conservation Stewardship Program (NRCS).
We will cover the findings and recommendations from
these efforts in future semiannual reports as we complete
the relevant audits and investigations.




                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half           29
                                                             Impact of the OIG




Gauging the Impact of OIG
MEASURING PROGRESS AGAINST THE OIG                                      For audits we show:
STRATEGIC PLAN                                                          σσ       reports issued,
The first way we gauged our impact was by measuring the                 σσ       management decisions made (number of
extent to which our work focused on the key issues under our                     reports and recommendations),
FY 2010 goals:                                                          σσ       total dollar impact of management-decided reports
                                                                                 (questioned costs and funds to be put to better use),
1.	   Strengthen USDA’s ability to implement safety and
      security measures to protect the public health as                 σσ       program improvement recommendations, and
      well as agricultural and Departmental resources.                  σσ       audits without management decision.
2.	   Reduce program vulnerabilities and strengthen program             For investigations we show:
      integrity in the delivery of benefits to individuals.
                                                                        σσ       indictments,
3.	   Support USDA in implementing its
      management improvement initiatives.                               σσ       convictions,
4.	   Increase the efficiency and effectiveness with which USDA         σσ       arrests,
      manages and exercises stewardship over natural resources.         σσ       total dollar impact (recoveries, restitutions,
                                                                                 fines, asset forfeiture),
IMPACT OF OIG AUDIT AND INVESTIGATIVE WORK ON                           σσ       administrative sanctions, and
DEPARTMENT PROGRAMS                                                     σσ       OIG Hotline complaints.

A second way we gauge our impact is by tracking the
outcomes of our audits and investigations. Many of these
measures are codified in the IG Act of 1978, as amended. The
following pages present a statistical overview of the OIG’s
accomplishments this period.


                              PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS
                                                                                                                      FY 2010     FY 2010
                                                                                            FY 2009    FY 2010
 Performance Measures                                                                                                 2nd Half    Full Year
                                                                                             Actual     Target
                                                                                                                       Actual      Actual

 OIG direct resources dedicated to critical-risk and high-impact work.                      95.3%        90%           88.4%        91.8%


 Audit recommendations resulting in management decision within 1 year of
                                                                                            88.8%        85%           84.5%        90.2%
 report issuance.

 Mandatory, Congressional, Secretarial, and agency-requested audits
                                                                                            100%         90%            100%        100%
 completed within required or agreed-to timeframes.

 Closed investigations that resulted in a referral for action to DOJ, State/local
                                                                                            74.6%        70%           88.2%        84.8%
 law enforcement officials, or relevant administrative authority.

 Closed investigations previously referred for action that resulted in an
 indictment, conviction, civil suit or settlement, judgment, administrative                 76.8%        65%           74.5%        72.8%
 action, or monetary result.




30     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
                                                           Impact of the OIG




                   RECOVERY ACT PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS
                                                                                                           FY 2010    FY 2010
                                                                                              FY 2010
Performance Measures                                                                                       2nd Half   Full Year
                                                                                               Target
                                                                                                            Actual     Actual

Review internal controls related to individual Recovery Act programs prior to substantial
                                                                                               75%         78.9%       78.9%
funds being obligated or expended.

Notify USDA agency managers of significant audit findings related to Recovery Act
programs along with recommendations for corrective action within 30 days after                 80%         85.7%       83.3%
identification.

Respond to Recovery Board sponsored requests and projects within established schedules
                                                                                               85%          100%        100%
or agreed-upon timeframes.

Whistleblower retaliation allegations are investigated and reported within 180 days of
                                                                                               75%          100%        100%
receipt.

Investigations staff will participate in 10 outreach/training meetings each quarter on
                                                                                               80%          145%        135%
Recovery Act work.

An investigative determination to accept or decline an allegation of whistleblower
                                                                                              100%          100%        100%
retaliation is made within 180 days of receipt.


Monthly reporting to Recovery Board on Recovery Act funds within required deadline.           100%          100%        100%




RECOGNITION OF OIG EMPLOYEES BY THE SECRETARY                         COUNCIL OF THE INSPECTORS GENERAL ON INTEGRITY
AND IG COMMUNITY                                                      AND EFFICIENCY (CIGIE) AWARDS
SECRETARY’S HONOR AWARD                                               Award for Individual Accomplishment
Personal and Professional Excellence                                  Mark Jones
                                                                      Investigations
Allan C. Kennedy
Investigations                                                        Barry R. Snyder Joint Award
National Organic Program Team                                         Introductory Auditor Training Team
Audit                                                                 Alfreda White

                                                                      Awards for Excellence
                                                                      CIGIE Legal Support Team
                                                                      Counsel
                                                                      Guardian Angel Investigations Team
                                                                      Investigations
                                                                      National Residue Program Audit Team
                                                                      Audit




                                                                   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half   31
                                                                        Impact of the OIG




                                          SUMMARY OF AUDIT ACTIVITIES—APRIL–SEPTEMBER 2010
Reports Issued                                                                                                                                    34
      Audits Performed by OIG                                                                                                                     30
      Evaluations Performed by OIG                                                                                                                 0
      Audits Performed Under the Single Audit Act                                                                                                  0
      Audits Performed by Others                                                                                                                   4
Management Decisions Made
      Number of Reports                                                                                                                           21
      Number of Recommendations                                                                                                                 168
Total Dollar Impact (Millions) of Management-Decided Reports                                                                                   $19.2
      Questioned/Unsupported Costs                                                                                                              $7.2ab
            Recommended for Recovery                                                                                                            $6.7
            Not Recommended for Recovery                                                                                                        $0.5
      Funds To Be Put to Better Use                                                                                                            $12.0
a These were the amounts the auditees agreed to at the time of management decision.
b The recoveries realized could change as auditees implement the agreed-upon corrective action
  plan and seek recovery of amounts recorded as debts due the Department.



                                  SUMMARY OF INVESTIGATIVE ACTIVITIES—APRIL–SEPTEMBER 2010
Reports Issued                                                                                                                                  116
      Cases Opened                                                                                                                              328
      Cases Referred for Prosecution                                                                                                             87
Impact of Investigations
      Indictmentsa                                                                                                                              192
      Convictions                                                                                                                               272
      Searches                                                                                                                                  103
      Arrests                                                                                                                                   844
Total Dollar Impact (Millions)                                                                                                                 $53.5
      Recoveries/Collections      b
                                                                                                                                               $11.0
      Restitutionsc                                                                                                                            $37.8
      Fines   d
                                                                                                                                                $1.1
      Asset Forfeitures   e
                                                                                                                                                $2.1
      Claims Established      f
                                                                                                                                                $1.1
      Cost Avoidanceg                                                                                                                           $0.4
      Administrative Penalties        h
                                                                                                                                                $0.0
Administrative Sanctions                                                                                                                        170
      Employees                                                                                                                                  28
      Businesses/Persons                                                                                                                        142
a
    Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely; therefore,
    the 272 convictions do not necessarily relate to the 192 indictments.	
b
    Includes money received by USDA or other Government agencies as a result of OIG investigations.	
c
    Restitutions are court-ordered repayments of money lost through a crime or program abuse. 	
d
    Fines are court-ordered penalties.	
e
    Asset forfeitures are judicial or administrative results.	
f
    Claims established are agency demands for repayment of USDA benefits.	
g
    Consists of loans or benefits not granted as the result of an OIG investigation.	
h
    Includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of OIG findings.	



32       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
                                                            Impact of the OIG




                Full FY 2010 Results in Key Categories—OCTOBER 2009–SEPTEMBER 2010
Summary of Audit Activities
Reports Issued
       Number of Reports                                                                                               65
       Number of Recommendations                                                                                      336
Management Decisions Made
       Number of Reports                                                                                               39
       Number of Recommendations                                                                                      287
Total Dollar Impact (Millions) of Management-Decided Reports                                                        $35.2
        Questioned/Unsupported Costs                                                                                 $7.3
        Funds To Be Put To Better Use                                                                               $27.9
Summary of Investigative Activities
Reports Issued                                                                                                        247
Impact of Investigations
       Indictments                                                                                                    356
       Convictions                                                                                                    459
       Arrests                                                                                                        992
Total Dollar Impact (Millions)                                                                                     $148.6
Administrative Sanctions                                                                                              289


                                INVENTORY OF AUDIT REPORTS WITH QUESTIONED COSTS AND LOANS
                                         FROM APRIL 1 THROUGH SEPTEMBER 30, 2010
                                                                                           DOLLAR VALUES
                                                                                          QUESTIONED COSTS      UNSUPPORTEDa
                                                                            NUMBER           AND LOANS         COSTS AND LOANS
A.        FOR WHICH NO MANAGEMENT DECISION
                                                                                7            $238,793,432           $2,101,093
          HAD BEEN MADE BY APRIL 1, 2010
B.        WHICH WERE ISSUED DURING THIS
                                                                                7             $21,841,329                     $0
          REPORTING PERIOD
          TOTALS                                                                14            $260,634,761           $2,101,093
C.        FOR WHICH MANAGEMENT DECISION WAS
                                                                                2
          MADE DURING THE REPORTING PERIOD
          (1) DOLLAR VALUE OF DISALLOWED COSTS
              RECOMMENDED FOR RECOVERY                                                          $6,667,707                    $0
              NOT RECOMMENDED FOR RECOVERY                                                        $544,000                    $0
          (2) DOLLAR VALUE OF COSTS NOT
                                                                                                        $0                    $0
              DISALLOWED
D.        FOR WHICH NO MANAGEMENT DECISION HAS
          BEEN MADE BY THE END OF THIS REPORTING                                12           $259,675,051           $2,101,093
          PERIOD
          REPORTS FOR WHICH NO MANAGEMENT
          DECISION WAS MADE WITHIN 6 MONTHS OF                                  6            $238,377,722           $2,101,093
          ISSUANCE
a
    Unsupported values are included in questioned values.




                                                                    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half    33
                                                             Impact of the OIG




            INVENTORY OF AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                 FROM APRIL 1 THROUGH SEPTEMBER 30, 2010
                                                                                                        NUMBER             DOLLAR VALUE
 A.    FOR WHICH NO MANAGEMENT DECISION HAD BEEN MADE BY
                                                                                                            2                $30,870,602
       APRIL 1, 2010
 B.    WHICH WERE ISSUED DURING THE REPORTING PERIOD                                                        4                 $6,763,240
       TOTALS                                                                                               6                 $37,633,842
 C.    FOR WHICH A MANAGEMENT DECISION WAS MADE DURING THE
                                                                                                            2
       REPORTING PERIOD
       (1) DOLLAR VALUE OF DISALLOWED COSTS                                                                                  $11,977,980
       (2) DOLLAR VALUE OF COSTS NOT DISALLOWED                                                                              $15,700,000
 D.    FOR WHICH NO MANAGEMENT DECISION HAS BEEN MADE BY THE
                                                                                                            4                 $9,955,862
       END OF THE REPORTING PERIOD
       REPORTS FOR WHICH NO MANAGEMENT DECISION WAS MADE
                                                                                                            1                 $3,370,602
       WITHIN 6 MONTHS OF ISSUANCE




PROGRAM IMPROVEMENT RECOMMENDATIONS                                     σσ       RMA agreed to coordinate better with other agencies
                                                                                 in order to minimize risks (such as duplicate payments)
A significant number of our audit recommendations carry no                       that can result from overlapping programs.
monetary value per se, but their impact can be immeasurable             σσ       FS agreed to publicly report Recovery Act funds approved
in terms of safety, security, and public health. They can also                   for projects in areas that were not the most economically
contribute considerably toward economy, efficiency, and                          distressed, and to explain its decision to approve these
effectiveness in USDA’s programs and operations. During                          projects.
this reporting period, we issued 154 program improvement
recommendations, and management agreed to implement a                   INVESTIGATION AND AUDIT PEER REVIEWS
total of 168 that were issued this period or earlier. Examples of
those issued this period (see the main text of this report for a        σσ       During the current semiannual reporting period, there
summary of the audits that prompted these recommendations)                       were no audit peer reviews of USDA OIG. The USDA
                                                                                 OIG received a grade of pass on the peer review report
include the following:
                                                                                 issued by HUD OIG on September 30, 2009. The report
σσ    APHIS agreed to strengthen its AWA inspection, training,                   contained no findings or recommendations. However,
      enforcement, and penalty procedures, and to seek legislative               HUD OIG did issue a separate Letter of Comment that
      change to regulate dog breeders that sell on the Internet.                 communicated issues that were not significant enough to
σσ    APHIS also agreed to issue guidance for safe, public                       affect their overall conclusions. The Letter of Comment
      viewing of exhibited animals, and to collect, analyze, and                 contained 8 suggestions that recommend enhancements
      disseminate information about animal escapes and attacks                   to the system of quality control. To date, USDA OIG
      so others can take appropriate preventive measures.                        has addressed 7 of those suggestions by reevaluating and
                                                                                 reiterating policy and practice. In FY 2011, USDA OIG
                                                                                 is taking steps to address the remaining suggestion.




34     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
                                                                   Impact of the OIG




                  SUMMARY OF AUDIT REPORTS RELEASED FROM APRIL 1 THROUGH SEPTEMBER 30, 2010
                From April 1 through September 30, 2010, OIG issued 34 audit reports, including 4
                   performed by others. The following is a summary of those audits by agency.
                                                                                    QUESTIONED        UNSUPPORTEDa     FUNDS BE PUT TO
AGENCY                                                       AUDITS RELEASED      COSTS AND LOANS    COSTS AND LOANS     BETTER USE
AGRICULTURAL MARKETING SERVICE                                      1
AGRICULTURAL RESEARCH SERVICE                                       3
ANIMAL AND PLANT HEALTH
                                                                    4                                                      $177,980
INSPECTION SERVICE
FARM SERVICE AGENCY                                                 2                     $22,578                          $264,524
FOOD AND NUTRITION SERVICE                                          2
FOREST SERVICE                                                      2
MULTIAGENCY                                                         5                   $1,169,645
NATURAL RESOURCES CONSERVATION
                                                                    2
SERVICE
OFFICE OF THE CHIEF FINANCIAL
                                                                    3
OFFICER
OFFICE OF THE CHIEF INFORMATION
                                                                    1
OFFICER
OFFICE OF HOMELAND SECURITY
                                                                    1
AND EMERGENCY COORDINATION
RISK MANAGEMENT AGENCY                                              1
RURAL BUSINESS-COOPERATIVE
                                                                    3                  $12,473,195
SERVICE
RURAL HOUSING SERVICE                                               2
RURAL UTILITIES SERVICE                                             2                   $8,175,911                        $6,320,736
TOTALS                                                             34                  $21,841,329                        $6,763,240
TOTAL COMPLETED:
      SINGLE AGENCY AUDIT                                          29
      MULTIAGENCY AUDIT                                             5
      SINGLE AGENCY EVALUATION                                      0
      MULTIAGENCY EVALUATION                                        0
TOTAL RELEASED NATIONWIDE                                          34
TOTAL COMPLETED UNDER
                                                                    4
CONTRACTb
TOTAL SINGLE AUDIT ISSUEDc                                          0
a
    Unsupported values are included in questioned values.
b
    Indicates audits performed by others.
c
    Indicates audits completed under the Single Audit Act.




                                                                           USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half     35
                                                            Impact of the OIG




                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                     FROM APRIL 1 THROUGH SEPTEMBER 30, 2010
                                                                                    QUESTIONED   UNSUPPORTED    FUNDS TO
                                                                                     COSTS AND    COSTS AND     BE PUT TO
AUDIT NUMBER      RELEASE DATE                         TITLE                           LOANS        LOANS      BETTER USE
Agricultural Marketing Service
                                       Followup on Purchases
01601-2-Hy        04/12/2010
                                       of Frozen Ground Beef
Total: Agricultural Marketing Service                                           1
Agricultural Research Service
                                       DCAA Contract Audit of
                                       International Science and Technology
02017-14-HQ       04/16/10             Centers (ISTC) Internal Controls for
                                       FY 2009, Funded by ARS – Project
                                       T-1420
                                       Recovery Act General Procurement
                                       Oversight Audit of ARS Steam Study
02703-1-HQ        09/15/10
                                       Task Order Awarded to Perkins +
                                       Will, Inc.
                                       Recovery Act General Procurement
                                       Oversight Audit of ARS Architectural-
02703-2-HQ        09/15/10
                                       Engineering Services Contract
                                       Awarded to RMF Engineering, Inc.
Total: Agricultural Research Service                                            3
Animal and Plant Health Inspection Service
                                       Animal Care Program – Inspections
33002-4-SF        05/14/10                                                                                      $177,980
                                       of Problematic Dealers
                                       Administration of the Horse
33601-2-KC        09/30/10             Protection Program and Slaughter
                                       Horse Transportation Program
                                       Controls Over Licensing of Animal
33601-10-Ch       06/29/10
                                       Exhibitors
                                       Controls Over Animal Import
33601-11-Ch       08/13/10
                                       Centers
Total: Animal and Plant Health Inspection Service                               4                               $177,980
Farm Service Agency
03601-18-Ch       08/10/10             FSA Farm Loan Security
                                       Emergency Disaster Assistance for the
03702-1-Te        09/30/10             2008 Natural Disasters: Emergency               $22,578                  $264,524
                                       Conservation Program
Total: Farm Service Agency                                                      2      $22,578                  $264,524
Food and Nutrition Service
                                       Oversight of Recovery Act Special
                                       Supplemental Nutrition Program for
27703-1-Ch        04/22/10
                                       Women, Infants and Children (WIC)
                                       Contingency Funds
                                       Recovery Act Equipment Upgrades
                                       and Facility Improvement Assistance
27703-2-HQ        09/30/10
                                       Provided to the Food Distribution
                                       Program on Indian Reservations
Total: Food and Nutrition Service                                               2



36    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
                                                               Impact of the OIG




                              AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                      FROM APRIL 1 THROUGH SEPTEMBER 30, 2010
                                                                                       QUESTIONED     UNSUPPORTED       FUNDS TO
                                                                                        COSTS AND      COSTS AND        BE PUT TO
AUDIT NUMBER       RELEASE DATE                          TITLE                            LOANS          LOANS         BETTER USE
Forest Service
08601-7-At         09/30/10             Forest Service Invasive Species
                                        Forest Service Firefighting Safety -
08601-58-SF        09/30/10
                                        Followup
Total: Forest Service                                                              2
Multi-Agency
                                        Effectiveness and Enforcement
50601-14-At        08/16/10             of Debarment and Suspension
                                        Regulations in USDA
                                        Pasture, Rangeland, and Forage Loss
50601-18-Te        08/27/10                                                             $1,169,645
                                        Pilot Program
                                        Recovery Act Review of the
                                        Effectiveness of Departmental/
50703-1-DA         06/23/10
                                        Agency Data Quality Review
                                        Processes
                                        Procurement Oversight Recovery
                                        Act Audit of South Building
50703-1-HQ         06/30/10
                                        Modernization (Phase 4A, Wing 5)
                                        Project
                                        Governmentwide Recovery Act
50703-2-DA         06/25/10             Review: Effectiveness of Department/
                                        Agency Data Quality
Total: Multi-Agency                                                                5    $1,169,645
Natural Resources Conservation Service
                                        Recovery Act – Emergency Watershed
10703-1-KC         09/08/10             Protection Program Floodplain
                                        Easements, Phase I
                                        Recovery Act – Watershed Protection
10703-2-KC         09/30/10             and Flood Prevention Operations
                                        Program, Phase I
Total: Natural Resources Conservation Service                                      2
Office of the Chief Financial Officer
                                        Agreed-Upon Procedures:
                                        Retirement, Health Benefits, and
                                        Life Insurance Withholdings/
11401-32-FM        09/16/10             Contribution and Supplemental
                                        Headcount Report Submitted to the
                                        Office of Personnel Management, FY
                                        2010
                                        Statement on Auditing Standards
11401-33-FM        09/24/10             No. 70 Report on National Finance
                                        Center General Controls
                                        Implementation and Operation of
11601-1-HQ         06/29/10
                                        GovTrip at USDA
Total: Office of the Chief Financial Officer                                       3




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half   37
                                                          Impact of the OIG



                              AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                      FROM APRIL 1 THROUGH SEPTEMBER 30, 2010
                                                                                   QUESTIONED    UNSUPPORTED    FUNDS TO
                                                                                    COSTS AND     COSTS AND     BE PUT TO
AUDIT NUMBER       RELEASE DATE                      TITLE                            LOANS         LOANS      BETTER USE
Office of the Chief Information Officer
                                     Statement on Auditing Standards
                                     No. 70 Report on National
88501-14-FM        09/02/10
                                     Information Technology Center
                                     General Controls
Total: Office of the Chief Information Officer                                 1
Office of Homeland Security and Emergency Coordination
                                     Assessment of USDA’s Disaster
42099-4-HQ         08/30/10
                                     Response Capabilities
Total: Office of Homeland Security and Emergency Coordination                  1
Risk Management Agency
                                     RMA’s Activities to Renegotiate the
05601-5-KC         08/27/10
                                     Standard Reinsurance Agreement
Total: Risk Management Agency                                                  1
Rural Business-Cooperative Service
                                     Review of Lender with Business and
34099-9-Te         06/24/10          Industry (B&I) Guaranteed Loan in               $544,000
                                     Maryland
                                     Review of Lender with B&I
34099-11-Te        09/29/10                                                         $4,019,657
                                     Guaranteed Loan in Louisiana
                                     RBS’ Intermediary Re-lending
34601-6-At         06/25/10                                                         $7,909,538
                                     Program
Total: Rural Business-Cooperative Service                                      3   $12,473,195
Rural Housing Service
                                     Controls Over Eligibility
                                     Determinations for Rural Community
04703-1-Hy         06/29/10
                                     Facilities Program Direct Loan and
                                     Grant Recovery Act Funds, Phase I
                                     Single-Family Housing Direct Loans
04703-2-KC         09/24/10
                                     Recovery Act Controls, Phase II
Total: Rural Housing Service                                                   2
Rural Utilities Service
                                     Water and Waste Disposal Grants in
09099-2-SF         09/09/10                                                          $939,300                  $5,520,736
                                     Alaska
                                     Controls Over Water and Waste
09601-1-At         09/30/10                                                         $7,236,611                  $800,000
                                     Disposal Loan and Grant Program
Total: Rural Utilities Service                                                 2    $8,175,911                 $6,320,736
Grand Total                                                                   34 $21,841,329                   $6,763,240




38    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
                                                           Impact of the OIG



                                          AUDITS WITHOUT MANAGEMENT DECISION
The IG Act has a number of reporting requirements, including tracking audits without management decision. The following
audits did not have management decisions made within the 6-month limit set by Congress. Narratives for new entries follow this
table. An asterisk indicates that an audit is pending judicial, legal, or investigative proceedings that must be completed before the
agency can act to complete management decisions.

                                             NEW SINCE LAST REPORTING PERIOD
                                                                                                                   Amount With No
                                                                                            Total Value at         Mgmt Decision
Agency          Date Issued                          Title of Report                     Issuance (in dollars)       (in dollars)
                                 1. Fiscal Year 2009 CCC Financial Statements
CCC             11/12/09                                                                               $0                     $0
                                 (06401-24-FM)
                                 2. Fiscal Year 2009 Forest Service Financial
FS              11/13/09                                                                                0                       0
                                 Statements (08401-10-FM)
                                 3. Fiscal Year 2009 Federal Information Security
Multi-agency    11/18/09                                                                                0                       0
                                 Management Act (FISMA) Report (50501-15-FM)
                                 4. Hurricane Indemnity Program – Integrity of
Multi-agency    03/31/10         Data Provided by the Risk Management Agency                   1,061,958              1,061,958
                                 (50601-15-At)



                            Audit Reports PREVIOUSLY REPORTED BUT NOT YET RESOLVED
These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the
recommendations where management decisions had not been reached have been reported in previous SARCs. Agencies have
been informed of actions that must be taken to reach management decision but, for various reasons, the actions have not been
completed. The appropriate Under and Assistant Secretaries have been notified of those audits without management decisions.
                                      PREVIOUSLY REPORTED BUT NOT YET RESOLVED
                                                                                                                   Amount With No
                                                                                            Total Value at         Mgmt Decision
Agency          Date Issued                          Title of Report                     Issuance (in dollars)       (in dollars)
                                 5. Hurricane Relief Initiatives: Livestock and Feed
FSA             02/02/09                                                                      $1,866,412              $1,288,247
                                 Indemnity Programs (03601-23-KC)
                                 6. Implementation of the Agricultural Risk
Multi-agency    09/30/03                                                                                 0                      0
                                 Protection Act (50099-12-KC)
NRCS            06/25/09         7. Conservation Security Program (10601-4-KC)                $4,895,958              $4,895,958
                                 8. Farm and Ranch Lands Protection Program –
                07/06/09         Nationwide Selected Non-Governmental                             716,563                716,563
                                 Organization (10099-6-SF)
                                 9. Monitoring of RMA’s Implementation of
RMA             03/15/02         Manual 14 Reviews/Quality Control Review                                0                      0
                                 System (05099-14-KC)
                                 10. Crop Loss and Quality Adjustments for
                09/30/08                                                                      15,951,016              15,951,016
                                 Aflatoxin Infected Corn (05601-15-Te)
                                 11. RMA’s 2005 Emergency Hurricane Relief
                03/04/09                                                                     217,256,417            217,256,417
                                 Efforts in Florida (05099-28-At)
                09/16/09         12. RMA Compliance Activities (05601-11-At)                             0                      0




                                                                   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half          39
                                                           Impact of the OIG




AUDITS WITHOUT MANAGEMENT DECISION - NARRATIVE                        remain. As part of the mandatory annual FISMA review,
FOR NEW ENTRIES                                                       OIG made 14 recommendations to the Department based
                                                                      on our findings. We recommended that in order to mitigate
1. Fiscal Year 2009 Commodity Credit Corporation                      the continuing material weaknesses, the Department should
(CCC) Financial Statements (06401-24-FM, issued                       rethink its policy of attempting to simultaneously achieve
November 12, 2009)                                                    numerous goals in short timeframes. Instead, the Department
During the review of the FY 2009 CCC Financial Statements,            and its agencies, working together, should define and
the independent auditors recommended that CCC reconcile               accomplish one or two critical objectives prior to proceeding on
and investigate the differences between the gross outlays and         to the next set of priorities. We have met with OCIO officials
offsetting collections which are recorded in their books and          to discuss these recommendations. OIG is continuing to
the balances which are reported monthly in Governmentwide             work with the Department and reviewing the documentation
Accounting and Reporting Modernization. CCC does                      submitted.
not concur with the recommendation. CCC believes the                  4. RMA Hurricane Indemnity Program (HIP) –
reconciliation does not need to be performed regularly in             Integrity of Data Provided by the Risk Management
the future; however, the independent auditors believe that            Agency (50601-15-At, issued March 31, 2010)
regular performance of this reconciliation will provide value
by potentially identifying erroneous accounting entries with          Based on our review of HIP, we concluded that the program
trading partners. Further meetings are anticipated to discuss a       was adversely affected by a lack of coordination between
course of action.                                                     RMA and FSA and that improper payments resulted from
                                                                      AIPs disregarding RMA controls intended to ensure accurate,
2. Fiscal Year 2009 Forest Service (FS) Financial                     supported changes to its data. FSA and RMA generally agreed
Statements (08401-10-FM, issued November 13,                          with our recommendations, and we have reached management
2009)                                                                 decision on six of the seven recommendations.
During the review of FY 2009 FS Financial Statements, the             To reach management decision on the last recommendation,
independent auditors recommended that FS’ management                  RMA needs to establish a policy indicating that routine
work with USDA to develop system configurations/account               monitoring controls should be implemented when
mappings in the new general ledger system and work with               other agencies (in addition to FSA) rely on its data to
Strategic Planning Budget and Accountability to align FS’             implement their programs. Since Information Technology
FY 2010 – 2015 strategic goals to FS’ presentation of its major       Modernization—which will maintain the history of changes
responsibility segments in the statement of net cost. FS concurs      to policies and better mitigate future data discrepancies—is
with the recommendation; however, its corrective action plans         not available until the 2011 reinsurance year, RMA needs
lacked sufficient specificity to allow management decision.           to provide details of interim monitoring controls to ensure
Meetings with OCFO and FS are being scheduled.                        the accuracy of transmitted data used by other agencies.
3. Fiscal Year 2009 Federal Information Security                      These interim controls are particularly critical since FSA’s
Management Act (FISMA) Report (50501-15-FM,                           Supplemental Revenue Assistance Payments Program relies on
issued November 18, 2009)                                             RMA data.

OIG found that, although improvements have been made in
the Department’s IT security, many longstanding weaknesses




40     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
                                                             Impact of the OIG




INDICTMENTS AND CONVICTIONS
From April 1 through September 30, 2010, OIG completed 116 investigations. We referred 87 cases to Federal, State, and local
prosecutors for their decision.
During the reporting period, our investigations led to 192 indictments and 272 convictions. The period of time to obtain court
action on an indictment varies widely; therefore, the 272 convictions do not necessarily relate to the 192 indictments. Fines,
recoveries/collections, restitutions, claims established, cost avoidance, and administrative penalties resulting from our investigations
totaled about $53.5 million. The following is a breakdown, by agency, of indictments and convictions for the reporting period.



                                 Indictments and Convictions—April 1, 2010 – September 30, 2010
                      Agency                                  Indictments                                   Convictions*
                       AMS                                          1                                             0
                      APHIS                                        28                                            64
                        ARS                                         1                                             2
                        FAS                                         6                                             0
                        FNS                                        113                                          156
                         FS                                        16                                             8
                        FSA                                         6                                            24
                        FSIS                                        2                                             2
                      GIPSA                                         3                                             1
                       NRCS                                         4                                             6
                        RHS                                         6                                             2
                       RMA                                          6                                             6
                        RUS                                         0                                             1
                       Totals                                      192                                           272
 * This category includes pretrial diversions.




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half          41
                                                           Impact of the OIG




OFFICE OF INSPECTOR GENERAL HOTLINE                                   period, the hotline received 1,711 complaints, which included
                                                                      allegations of participant fraud, employee misconduct, and
The OIG hotline serves as a national intake point for reports         mismanagement, as well as opinions about USDA programs.
from both employees and the general public of suspected               Figure 1 displays the volume and type of the complaints we
incidents of fraud, waste, mismanagement, and abuse in                received, and figure 2 displays their disposition.
USDA programs and operations. During this reporting



   Figure 1. Volume and Type



                                                                                              Participant Fraud (1090)




                   Employee Misconduct (204)



                   Reprisal (2)
                   Bribery (1)
                   Opinion/Information (198)                                                 Waste Management (165)

                   Health/Safety Problem (51)



   Figure 2. Disposition of Complaints Received


                                                                                                       Referred to USDA Agencies
       Referred to Other Law
                                                                                                               for Response (600)
       Enforcement Agencies (8)

       Referred to OIG Audit or
       Investigations for Review (120)

       Referred to State Agencies (13)

                                                                                                 Referred to FNS for Tracking (649)
       Filed Without Referral–
       Insufficient Information (103)


       Referred to USDA or Other Agencies
       for Information–No Response
       Needed (218)




42     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
                                                                Impact of the OIG




                         FREEDOM OF INFORMATION ACT (FOIA) AND PRIVACY ACT (PA) REQUESTS
                                  FOR THE PERIOD APRIL 1 TO SEPTEMBER 30, 2010
Number of FOIA/PA Requests Received                                                                                       64
Number of FOIA/PA Requests Processed                                                                                      71
Number Granted                                                                                                            7
Number Partially Granted                                                                                                  31
Number Not Granted                                                                                                        33
Reasons for Denial
No Records Available                                                                                                      15
Referred to Other Agencies                                                                                                2
Requests Denied in Full Exemption 3                                                                                       0
Requests Denied in Full Exemption 6                                                                                       2
Requests Denied in Full Exemption 7(A)                                                                                    4
Requests Denied in Full Exemption 7(C)                                                                                    4
Request Withdrawn                                                                                                         5
Fee-Related                                                                                                               1
Not a Proper FOIA Request                                                                                                 2
Not an Agency Record                                                                                                      0
Duplicate Request                                                                                                         2
Other                                                                                                                     1
Requests for OIG Reports from Congress and Other Government Agencies
Received                                                                                                                  5
Processed                                                                                                                 5
Appeals Received                                                                                                          8
Appeals Processed                                                                                                         4
Appeals Completely Upheld                                                                                                 4
Appeals Partially Reversed                                                                                                0
Appeals Completely Reversed                                                                                               0
Appeals Requests Withdrawn                                                                                                0
Not Proper FOIA request                                                                                                   0
Other                                                                                                                     0
Number of OIG Reports/Documents Released in Response to Requests                                                          31
NOTE 1: A request may involve more than one report.
NOTE 2: During this 6-month period, 42 audit reports were posted online on the OIG Web site: http://www.usda.gov/oig.




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half   43
                                                           Abbreviations




Abbreviations
Abbreviation Full Name                                               Abbreviation Full Name
AIP           Approved Insurance Provider                            NASS         National Agricultural Statistics Service
AMS           Agricultural Marketing Service                         NFC          National Finance Center
APHIS         Animal and Plant Health Inspection Service             NIFA         National Institute of Food and Agriculture
ARS           Agricultural Research Service                          NITC         National Information Technology Center
AWA           Animal Welfare Act                                     NRCS         Natural Resources Conservation Service
BCAP          Biomass Crop Assistance Program                        NSLP         National School Lunch Program
CACFP         Child and Adult Care Food Program                      OCFO         Office of the Chief Financial Officer
CCC           Commodity Credit Corporation                           OCIO         Office of the Chief Information Officer
CCWD          Community College Workforce Development                OGC          Office of the General Counsel
CIGIE         Council of the Inspectors General on Integrity         OGE          Office of Government Ethics
              and Efficiency                                         OIG          Office of Inspector General
DOJ           U.S. Department of Justice                             OMB          Office of Management and Budget
DHS           U.S. Department of Homeland Security                   OWCP         Office of Workers Compensation Programs
EBT           Electronic Benefits Transfer                           PCIE         President’s Council on Integrity and Efficiency
ECP           Emergency Conservation Program                         Recovery     American Recovery and Reinvestment Act of
EPA           Environmental Protection Agency                        Act          2009
ERS           Economic Research Service                              Recovery     Recovery Accountability and Transparency
FAA           Federal Aviation Administration                        Board        Board
FAR           Federal Acquisition Regulations                        RBS          Rural Business-Cooperative Service
FAS           Foreign Agricultural Service                           RHS          Rural Housing Service
FSA           Farm Service Agency                                    RMA          Risk Management Agency
FBI           Federal Bureau of Investigation                        RUS          Rural Utilities Service
FCIC          Federal Crop Insurance Corporation                     SARC         Semiannual Report to Congress
FISMA         Federal Information Security Management Act            SAS          Statement Auditing Standards
FNS           Food and Nutrition Service                             SNAP         Supplemental Nutrition Assistance Program
FS            Forest Service                                         SFH          Single-Family Housing Direct Loan Program
FAS           Foreign Agricultural Service                           SRA          Standard Reinsurance Agreement
FDA           Food and Drug Administration                           SSA          Social Security Administration
FSA           Farm Service Agency                                    TEFAP        The Emergency Food Assistance Program
FSIS          Food Safety and Inspection Service                     USAID        U.S. Agency for International Development
GAO           Government Accountability Office                       USB          United Soybean Board
GIPSA         Grain Inspection, Packers and Stockyard                USDA         U.S. Department of Agriculture
              Administration                                         USDOL        U.S. Department of Labor
GSA           General Services Administration                        USSEC        U.S. Soybean Export Council
HUD           Housing and Urban Development                          WIC          Special Supplemental Nutrition Program for
IG            Inspector General                                                   Women, Infants, and Children
IRS           Internal Revenue Service
IT            Information Technology




44     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 2nd Half
PROGRAM IMPROVEMENT RECOMMENDATIONS MANAGEMENT AGREED TO DURING THIS
REPORTING PERIOD (168 TOTAL)
σσ    APHIS agreed to strengthen its AWA inspection, training, enforcement, and penalty procedures,
      and to seek legislative change to regulate breeders that sell on the Internet.
σσ    APHIS also agreed to issue guidance for safe, public viewing of exhibited animals, and to collect, analyze, and
      disseminate information about animal escapes and attacks so others can take appropriate preventive measures.
σσ    RMA agreed to coordinate better with other agencies in order to minimize risks (such
      as duplicate payments) that can result from overlapping programs.
σσ    FS agreed to publicly report Recovery Act funds approved for projects in areas that were not the
      most economically distressed, and to explain its decision to approve these projects.


OIG MISSION
σσ    OIG assists USDA by promoting effectiveness and integrity in hundreds of Department programs. These
      programs encompass a broad spectrum, involving such areas as consumer protection, nutrition, animal and
      plant health, agricultural production, agricultural product inspection and marketing, rural development,
      research, conservation, and forestry. They affect our citizens, our communities, and our economy.


OIG STRATEGIC GOALS
We have focused nearly all of our audit and investigative direct resources on our four goals:
σσ    Strengthen USDA’s ability to implement safety and security measures to protect the
      public health as well as agricultural and Departmental resources.
σσ    Reduce program vulnerabilities and strengthen program integrity in the delivery of benefits to program participants.
σσ    Support USDA in implementing its management improvement initiatives.
σσ    Increase the efficiency and effectiveness with which USDA manages and exercises stewardship over natural resources.
             To learn more about OIG, visit our website at
             http://www.usda.gov/oig/index.htm

             How To Report Suspected Wrongdoing in USDA Programs

             Fraud, Waste, and Abuse
             In Washington, DC 202-690-1622
             Outside DC 800-424-9121
             TDD (Call Collect) 202-690-1202

             Bribes or Gratuities
             202-720-7257 (Monday–Friday, 9:00 a.m.– 3 p.m. ET)




Semiannual Report to Congress

             The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities on the basis of race,
             color, national origin, age, disability, and where applicable, sex, marital status, familial status, parental status, religion, sexual
             orientation, genetic information, political beliefs, reprisal, or because all or part of an individual’s income is derived from any
             public assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative
             means for communication of program information (Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center
             at (202) 720–2600 (voice and TDD). To file a complaint of discrimination, write to USDA, Director, Office of Civil Rights, 1400
             Independence Avenue, S.W., Washington, D.C. 20250–9410, or call (800) 795–3272 (voice) or (202) 720–6382 (TDD).
             USDA is an equal opportunity provider and employer.


             December 2010
